Case 20-2296, Document 93-1,03/24/2021,3062572, Pagel of 5

20-2296-pr
Zaire Paige v. Stewart Eckert, et at.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
24th day of March, two thousand twenty one.
Present:

ROSEMARY S. POOLER,
RICHARD J. SULLIVAN,
MICHAEL H. PARK,
Circuit Judges.

ZAIRE PAIGE,
Petitioner-Appellant,
v.

20-2296-pr

STEWART ECKERT, SUPERINTENDENT
WENDE CORRECTIONAL FACILITY,
LETITIA JAMES, ATTORNEY GENERAL
OF NEW YORK,
Respondents-Appellees. i

Appearing for Appellant:

Lorca Morello (Richard Joselson, on the brief), The Legal Aid
Society, Criminal Appeals Bureau, New York, N.Y.

Appearing for Appellee:

Terrence F. Heller, Assistant District Attorney (Leonard Joblove,
Camille O’Hara Gillespie, Assistant District Attorneys, on the

The Clerk of Court is respectfully directed to amend the caption as set forth above.

APPENDIX A

Case 20-2296, Document 93-1,03/24/2021,3062572, Page2 of 5

brief) for Eric Gonzalez, District Attorney Kings County,
Brooklyn, N.Y.
Appeal from the United States District Court for the Eastern District of New York
(Brodie, 1).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of District Court be and it hereby is AFFIRMED.
Zaire Paige appeals from the July 9, 2020 judgment of the United States District Court
for the Eastern District of New York (Brodie, J.) denying his petition for a writ of habeas corpus
under 28 U.S.C. § 2254. We assume the parties’ familiarity with the underlying facts, procedural
history, and specification of issues for review.
On November 12, 2010, after a jury trial in Kings County Supreme Court (the “Trial
Court”), Paige was convicted of one count of murder in the second degree, three counts of
assault in the first degree, one count of assault in the second degree, and one count of criminal
possession of a weapon in the second degree. On January 24,2011, the Trial Court issued its
judgment and sentenced Paige to a total prison term of 107 years to life. Paige appealed his
conviction to the New York Supreme Court Appellate Division, Second Department, alleging the
Trial Court violated his constitutional right to be present during his trial by ejecting him from the
court and refusing to readmit him. The Appellate Division affirmed the conviction. People v.
Paige, 22 N.Y.S.3d 220, 229 (2d Dep’t 2015). The Appellate Division reviewed Paige’s
behavior and held that his “actions throughout the course of the trial constituted disruptive
conduct warranting [his] exclusion from the courtroom.” Id. at 225 (citations omitted). It also
held that the Trial Court was within its discretion in declining to credit Paige’s proffered
willingness to comport himself appropriately and refusing to readmit him to the courtroom. Id. at
226. Finally, the Appellate Division held that the Trial Court “did not improvidently exercise its
discretion in declining defense counsel’s request to permit [Paige] to view the proceedings from
a remote location.” Id. The New York Court of Appeals twice denied Paige’s request for leave to
appeal. People v. Paige, 27 N.Y.3d 1073 (2016); People v. Paige, 27 N.Y.3d 1137 (2016).
We review a district court’s denial of a petition for habeas corpus de novo, and its
underlying findings of fact for clear error. Ramchair v. Conway, 601 F.3d 66, 72 (2d Cir. 2010).
Pursuant to the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), when a state
court adjudicates a petitioner’s habeas claim on the merits, a district court may grant relief only
where the state court’s decision was “contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States” or was
“based on an unreasonable determination of the facts in light of the evidence presented.” 28
U.S.C. § 2254(d)(l)-(2). This standard is extremely deferential to state court determinations. “A
state court’s determination that a claim lacks merit precludes federal habeas relief so long as
fairminded jurists could disagree on the correctness of the state court’s decision.” Harrington v.
Richter, 562 U.S. 86, 101 (2011) (internal quotation marks omitted). “We will not lightly
conclude that a State’s criminal justice system has experienced the extreme malfunction for
which federal habeas relief is the remedy.” Burt v. Titlow, 571 U.S. 12, 20 (2013) (alteration and
internal quotation marks omitted).

2

APPENDIX A

Case 20-2296, Document 93-1,03/24/2021,3062572, Page3 of 5

We conclude that the district court did not err in holding that the Appellate Division
reasonably applied federal law when it rejected Paige’s claim that he was denied his
constitutional right to be present at trial. The relevant clearly established law for AEDPA
purposes is the Supreme Court’s decision in Illinois v. Allen, where the Court held that “a
defendant can lose his right to be present at trial if, after he has been warned by the judge that he
will be removed if he continues his disruptive behavior, he nevertheless insists on conducting
himself in a manner so disorderly, disruptive, and disrespectful of the court that his trial cannot
be carried on with him in the courtroom.” 397 U.S. 337, 343 (1970) (footnote omitted). The
Supreme Court also held that, “[o]nce lost, the right to be present can, of course, be reclaimed as
soon as the defendant is willing to conduct himself consistently with the decorum and respect
inherent in the concept of courts and judicial proceedings.” Id. Paige argues that the Appellate
Division’s decision was an unreasonable application of Allen both with respect to his initial
ejection and his continued exclusion. We disagree.
Paige correctly notes that Allen’s behavior was substantially more disruptive than
Paige’s. See id. at 339-41 (observing that throughout the course of the trial, Allen made direct
threats to the judge’s life, threw his papers across the courtroom, and made repeated outbursts
regarding the intervention of his stand-by counsel). But we cannot say that the Appellate
Division unreasonably applied Allen to the circumstances presented here. Indeed, our Court has
held that a defendant may be removed for conduct significantly less egregious than Allen’s. See
Norde v. Keane, 294 F.3d 401,413 (2d Cir. 2002) (“While Norde’s behavior was significantly
less egregious than that of the defendant in Allen, we conclude that Norde’s removal was within
the trial judge’s broad discretion.”). The Trial Court acted within its broad discretion in initially
removing Paige from the courtroom. Paige argues that the Trial Court failed to provide the
requisite warnings before his removal, describing the Trial Court’s admonition of “Be quiet. If
you want to testify, you can take the stand” as a sarcastic taunt rather than the constitutionally
required warnings regarding removal. Appellant’s Br. at 48. While the remark about testifying
may not have been the most appropriate response to Paige’s outburst, the instruction to “[b]e
quiet” was clearly a lawful directive that Paige ignored. Furthermore, the Appellate Division
found that Paige received numerous prior warnings that efforts to delay the trial would lead to it
proceeding without him. See Paige, 22 N.Y.S.3d at 225-26. The record supports this finding, as
Paige was repeatedly warned of the potential consequences of his prior behavior during disputes
with the Trial Court about his clothing and production to the courtroom. The Trial Court did not
err in ejecting Paige.
The Trial Court’s refusal to readmit Paige after his ejection presents a closer question,
but, under the standards provided by AEDPA, the Appellate Division did not misapply Allen in
affirming the Trial Court’s refusal to readmit Paige. The parties dispute the factual record on
several matters relevant to Paige’s credibility and pattern of conduct. Paige argues that the Trial
Court improperly shaded the facts regarding Paige’s absences prior to his exclusion and included
disruptions not evident in the record. There is no basis to find that the Trial Court misrepresented
the events prior to the confrontation. Paige was late to the courtroom several times, and the Trial
Court described these incidents as deliberate attempts to frustrate the proceedings. We review the
factual record regarding exclusion in habeas cases through a doubly deferential lens. See Jones v.
Murphy, 694 F.3d 225, 241 (2d Cir. 2012) (“When [the deferential decision to exclude] is

3

APPENDIX A

Case 20-2296, Document 93-1,03/24/2021,3062572, Page4 of 5 >

viewed through the additionally deferential lens of § 2254(d), the bar to relief is a high one.”
(citation and internal quotation marks omitted)).
Although Allen instructs courts to readmit a defendant who is willing to conduct himself
consistently with the decorum and respect inherent in the concept of courts and judicial
proceedings, the Trial Court was permitted to examine Paige’s pattern of behavior in declining to
credit his stated willingness to behave appropriately. Allen does not require automatic
readmission; rather, courts must only readmit defendants where “[the defendant] satisfactorily
demonstrate^] that he would not be violent or disruptive.” Id. at 240. The Supreme Court in
Allen noted that the discretion afforded regarding trial applied more broadly than to the specific
facts of the case, explaining that “trial judges confronted with disruptive, contumacious,
stubbornly defiant defendants must be given sufficient discretion to meet the circumstances of
each case.” 397 U.S. at 343.
Here, Paige’s pattern of behavior throughout the trial provides sufficient support for the
Trial Court’s refusal to readmit him. The Trial Court found Paige engaged in further delaying
tactics after his exclusion by deliberately choosing to absent himself from the courthouse once
trial resumed. Paige argues that the Trial Court failed to properly examine the circumstances of
his absence, merely reciting what he was informed by court personnel. Paige contends that the
Trial Court should have engaged in a more searching inquiry. However, applying the deferential
standard of review, the Trial Court permissibly found that Paige voluntarily absented himself
from the trial through more delaying tactics after his ejection. Given this behavior, the Trial
Court was entitled to conclude that Paige could not satisfactorily demonstrate that he would
behave with proper decorum. See Jones, 694 F.3d at 240-44. Thus, despite Paige’s repeated
promises to demonstrate decorum and Allen’s admonition for courts to readily readmit
defendants, fair-minded jurists could reasonably disagree as to whether Paige had exhibited a
willingness to forego further disruption of the trial proceedings. Accordingly, he is not entitled to
relief under AEDPA’s demanding standards. See Harrington, 562 U.S. at 101.
Paige also argues that the Trial Court violated his constitutional right to be present by
denying his request to observe the trial through closed-circuit video after his exclusion. The Trial
Court refused to accommodate this request. The Trial Court did not explain this denial beyond
stating that Paige had waived his right to be present and that it would not alter the proceedings
for his benefit after his disruptive behavior. The Appellate Division rejected Paige’s argument
that this constituted reversible error, explaining, “while a trial court that readily possesses the
means to do so should generally permit a defendant who has been excluded from the courtroom
to observe the proceedings from a remote location in order to minimize the possib[i]l[it]y of
prejudice, we conclude that under the particular circumstances of this case, the court did not
improvidently exercise its discretion in declining defense counsel’s request to permit the
defendant to view the proceedings from a remote location.” Paige, 22 N.Y.S.3d at 226 (citations
omitted). The Supreme Court has never held that an excluded defendant has a right to observe
his trial through alternative mechanisms. Accordingly, the Appellate Division did not
unreasonably apply clearly established federal law when it affirmed the Trial Court’s rejection of
Paige’s proposed accommodation.2
2 While the right to observe a trial after exclusion has not been clearly established by the
Supreme Court, Justice Brennan in Allen did offer the following counsel to trial courts: “[W]hen
4

APPENDIX A

Case 20-2296, Document 93-1,03/24/2021,3062572, Page5 of 5

We have considered the remainder of Paige’s arguments and find them to be without
merit. Accordingly, the judgment of the district court hereby is AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

i

a defendant is excluded from his trial, the court should make reasonable efforts to enable him to
communicate with his attorney and, if possible, to keep apprised of the progress of his trial. Once
the court has removed the contumacious defendant, it is not weakness to mitigate the
disadvantages of his expulsion as far as technologically possible in the circumstances.” 397 U.S
at 351 (Brennan, J., concurring).
5

APPENDIX A

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 1 of 42 PagelD #: 1864

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

ZAIRE PAIGE,
Petitioner,

MEMORANDUM & ORDER
16-CV-6802 (MKB)

v.
STEWART ECKERT, Superintendent ofWende
Correctional Facility, and LETITIA JAMES, i
Attorney General ofNew York,
Respondents.

MARGO K. BRODIE, United States District Judge:
Petitioner Zaire Paige, represented by counsel and currently incarcerated at Sullivan
Correctional Facility, brings the above-captioned petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254, alleging that he is being held in state custody in violation of his federal
constitutional rights. (Pet., Docket Entry No. 1.) Petitioner’s claims arise from multiple
judgments of conviction following a jury trial in the Supreme Court of New York, Kings County
(the “Trial Court”) for one count of murder in the second degree, three counts of assault in the
first degree, one count of assault in the second degree, and one count of criminal possession of a
weapon in the second degree. (Id. at 1.) The Trial Court sentenced Petitioner to a total of 107
years in prison. (Id.) Petitioner appealed his conviction to the New York Supreme Court
Appellate Division, Second Department (the “Appellate Division”), which affirmed the
conviction. People v. Paige, 22 N.Y.S.3d 220 (App. Div. 2015). The New York Court of

i

Attorney General Letitia James is substituted for former Attorney General Eric
Schneiderman. See Fed. R. Civ. P. 25(d).

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 2 of 42 PagelD #: 1865

Appeals denied leave to appeal, People v. Paige, 27 N.Y.3d 1073 (2016), and also denied
Petitioner’s motion for reconsideration, People v. Paige, 27 N.Y.3d 1137 (2016).
Petitioner’s initial petition raised a single claim, arguing that the Trial Court
unconstitutionally excluded him from his trial. (Pet’r Br. 20-37, Docket Entry No. 7.) On
February 8, 2017, Petitioner filed a pro se motion for leave to amend his petition with additional
claims that his counsel did not raise in his initial petition. (Mot. to Amend, Docket Entry No. 8.)
By Order dated February 13, 2017, the Court granted the motion. (Order dated Feb. 13, 2017.)
Petitioner raised three additional claims in his pro se supplemental briefing. (Pet’r Suppl. Initial
Br., Docket Entry No. 13; Pet’r Suppl. Reply, Docket Entry No. 17.) In his supplemental initial
brief, Petitioner argues that the Trial Court unconstitutionally removed two jurors from his jury
and unconstitutionally admitted prejudicial testimony against Petitioner at trial. (Pet’r Suppl.
Initial Br. 16-36.) In his supplemental reply brief, Petitioner asks the Court to grant habeas relief
in light of the prosecutors’ “new admission that [the cellular telephone] call data records
[introduced at trial] . .. do[] not place Petitioner at the scene of the crime, as erroneously relied
on by the [Appellate Division].” (Pet’r Suppl. Reply ^ 8.)
For the reasons discussed below, the Court denies Petitioner habeas corpus relief on both
the counseled and pro se claims.
I.

Background
a.

Charges against Petitioner

A grand jury indicted Petitioner on one count of murder in the second degree, three
counts of assault in the first degree (with lesser, alternative charges on each count of reckless
assault in the second degree), one count of assault in the second degree, and one count of
criminal possession of a weapon. (Jury Trial Tr. 1316-29, annexed to Resp’ts Aff., Docket Entry

2

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 3 of 42 PagelD #: 1866

Nos. 10-1-10-7.)2 Prosecutors tried Petitioner and co-defendant Robert Crawford jointly before
the Trial Court, beginning on October 27, 2010. {Id. at 1.)
b.

Trial

Petitioner was an aspiring motion picture actor and powerful member of the Crips street
gang. {Id. at 619.) When Petitioner’s best friend Teddy McNickle was murdered in 2006, both
police and Petitioner suspected Lethania Garcia had committed the murder. {Id. at 576, 587,
879-80,1068, 1072.)
In the fall of 2008, Petitioner’s friends included Paul Wint and co-defendant Crawford.
{Id. at 564, 571.) Although Crawford belonged to the rival Bloods street gang, the Crips with

• i

whom Petitioner and Wint associated allowed Crawford in their social circle because Crawford
grew up with Petitioner. {Id. at 732.) Among Petitioner’s associates, Wint was the only person
with a vehicle.3 {Id. at 577.)
i.

Shooting of Garcia and bystanders

On October 27, 2008, Wint drove Petitioner and Petitioner’s friend Smiley, and later
Crawford, to a state courthouse in Brooklyn, where Petitioner announced that they were to look
for Garcia, who Petitioner reiterated had killed Petitioner’s best friend McNickle back in 2006.
{Id. at 584-87.) After Wint and Smiley located Garcia inside one of the courtrooms, Smiley
followed Garcia on foot as Garcia exited the courthouse, while Wint returned to Petitioner and
Crawford so they could follow Garcia in Wint’s vehicle. {Id. at 588-96.) When Wint parked the

2 The Court refers to the original page numbers in the trial transcript and other state court
hearing transcripts.
3 Although Wint operated the vehicle and made the car payments, due to Wint’s “license
problems” and “bad driving record,” Wint’s friend registered the car, and Wint’s girlfriend titled
the car in her name to obtain a better car loan rate. (Jury Trial Tr. 572-73, annexed to Resp’ts
Aff., Docket Entry Nos. 10-1-10-7.)

3

APPENDIX B

i

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 4 of 42 PagelD #: 1867

car, Petitioner and Crawford pulled out semi-automatic firearms, and Petitioner instructed
Crawford to cover him as he attempted to assassinate Garcia. {Id. at 597.) Petitioner and
Crawford racked their weapons, exited the vehicle, moved toward Garcia, and gunshots followed
shortly thereafter. {Id. at 448, 598-99.)
Petitioner and Crawford chased Garcia into a nearby hair salon. {Id. at 134,404-06,432,
448.) As Garcia stumbled into the salon — seemingly already injured — several bystanders
unsuccessfully attempted to escape out the back door of the salon which had been wedged shut.
{Id. at 111-12, 135-36, 141-42,407-08, 433-34.) As a result of the gunfire, several bystanders
were shot. {Id. at 434.) One — a hairdresser employed at the salon — suffered several shots in
i

her upper thigh, arm, and back, causing her body to jerk with each bullet and eventually fall to
the ground. {Id. at 115, 434.) The gunshots shattered the hairdresser’s bones, the treatment of
which required a half-dozen surgeries and the installation of a metal plate during two months of
hospitalization, followed by physical therapy and rehabilitation. {Id. at 120-21.) The hairdresser
testified at trial two years later that she continued to experience pain from her injuries, requiring
five daily doses of three different prescription pain medications, and could no longer work as a
result of her injuries. {Id. at 107,122.)
A second bystander — an off-duty police officer at the salon for an appointment —
suffered a gunshot wound through the top of her foot, breaking three toes, and exiting through
the back ofher big toe. {Id. at 139.)
A third bystander — a nearby pedestrian on the sidewalk — ran into the salon after
hearing the gunshots. {Id. at 406-07.) After failing to escape through the salon’s back door with
the others, the third bystander dove to the ground near Garcia. {Id. at 407-08.) Petitioner stood
atop Garcia and fired repeatedly into his head, striking the third bystander’s leg twice in the

4

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 5 of 42 PagelD #: 1868

process. {Id. at 408-09, 434.) The third bystander was hospitalized for about seven hours and
endured painful treatment for weeks afterward. {Id. at415,418.) A bullet fragment remained

4

embedded in his leg two years later when he testified at Petitioner’s trial. {Id. at 408,413, 418.)
Despite the bystanders’ injures, Garcia was the only victim to die from the shooting. {Id.
at 478.) An autopsy revealed eight gunshot wounds, including three in his head and one in his
back. {Id. at 479-83.) These gunshot wounds perforated Garcia’s brain and spinal cord as well
as his liver and right lung. {Id. at 483.) Garcia died from the combination of gunshot “wounds
of the head, body and extremities with perforations of brain, cervical spinal cord, liver, and
lung.” {Id. at 485.)
ii.

Petitioner’s actions after the shooting

Petitioner and Crawford returned to Wint’s vehicle immediately after the shooting and
instructed Wint to drive off quickly. {Id. at 436, 599-600.) During the drive, Petitioner verbally
celebrated having killed Garcia, {id. at 600-01, 772), and after leaving the scene, Petitioner,
Crawford, and Wint watched news coverage of the shooting on television, {id. at 602). After the
shooting, Petitioner called the mother of his deceased best friend McNickle, wished her a happy
birthday, and asked her to tell McNickle’s father, “I took care of that.” {Id. at 881.)
iii.

Petitioner’s behavior during the trial and sentencing

Petitioner’s courtroom behavior was a major issue for the Trial Court. The Trial Court
found that Petitioner’s conduct, viewed as a whole, constituted a sustained effort “to delay the
proceedings or frustrate the proceedings.” {Id. at 1200.)
Petitioner engaged in several efforts to interfere with the trial’s orderly progress. For
example, Petitioner once refused to reenter the courtroom without receiving new trial clothing
from his family, despite the family’s non-compliance with mandatory security procedures in

5

APPENDIX B

}

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 6 of 42 PagelD#: 1869

place for providing an incarcerated defendant with trial clothing. {Id. at 157-58.) In addition, on
multiple occasions, Petitioner would remove his clothing during short recesses, precluding his
transport back into the courtroom. {Id. at 643^14, 983.)4 The Trial Court found that Petitioner
had been coordinating with his mother, who had been attending the trial, in order to disrupt the
proceedings. {Id. at 1174.) The most noteworthy incident occurred when Petitioner disrupted
the trial with an outburst during testimony in front of the jury. {Id. at 979.) In response to
testimony that law enforcement had seized firearms, ammunition, and drugs from the location at
which Petitioner had been arrested on another occasion unrelated to this case, Petitioner
interrupted the testimony to deny possession of the seized items and accuse the witness of lying.
{Id.) The Trial Court later described Petitioner’s conduct during this outburst as “boisterous,”
noting that Petitioner “started shouting obscenities at the witness in the presence of the jury. >> 5
{Id. at 992-93.) The Trial Court observed that Petitioner ignored its “lawful directive” to stop
interrupting the testimony, then “stood up and in front of the jury, shouted more obscenities,” and

;

4 The trial transcript filed with the Court is missing pages 639 through 672. {See Jury
Trial Tr. 638, 673.) However, both Petitioner’s Brief and Respondents’ Affidavit quote in full
the Trial Court’s admonition on pages 643 through 644 of the trial transcript. {See Pet’r Br. 11,
Docket Entry No. 7; Resp’ts Aff. 20, Docket Entry No. 10.) The Court relies on the parties’
undisputed recitation of the record.
5 During the testimony of the witness, Petitioner interrupted the proceedings as follows:
Petitioner:
That shit wasn’t mine. It wasn’t at my
house.
Trial Court: Be quiet. If you want to testify, you can take
the stand.
Petitioner:
He’s fucking lying.
Trial Court: Take charge of the defendant.
Petitioner:
He is sitting up there fucking lying.
Trial Court: Officer, take charge of the defendant.
Petitioner:
Get the fuck out of here, man.
(Defendant Paige was removed from the courtroom.)
(Jury Trial Tr. 979.)
6

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 7 of 42 PagelD #: 1870

required “two court officers [to] le[a]d [Petitioner] out of the courtroom” because he “resisted
being cuffed by the officers.” {Id. at 983, 992-93.) The Trial Court observed that during
Petitioner’s outburst, Petitioner’s “mother, who had been sitting in the audience observing the
trial, stood up and started shouting obscenities in the direction of this [c]ourt in the presence of
this jury.” {Id. at 993.)
The Trial Court adjourned for the day after Petitioner’s removal, but Petitioner did not
return to court when trial next reconvened. {Id. at 990.) Instead, Petitioner chose to get a haircut
at the detention facility rather than board the appropriate transport to the courthouse. {Id. at 993,
1171.) At this point, the Trial Court chose to continue the trial in Petitioner’s absence. {Id. at
993.)
Later in the proceedings, Petitioner’s trial counsel spoke with Petitioner and informed the
Trial Court that Petitioner was ready to conduct himself appropriately. {Id. at 1170.) The Trial
Court declined to credit this representation and refused to readmit Petitioner to his trial. {Id. at
1170-74.)
After the Trial Court barred Petitioner from the courtroom, Petitioner’s counsel indicated
that Petitioner wished to testify in his own defense. {Id. at 1173.) Although the Trial Court
suspected that Petitioner’s desire to testify was a “delaying, stalling tactic on [Petitioner’s] part”
and that his request was “another example of [Petitioner] trying to delay the proceedings or
frustrate the proceedings,” the Trial Court nevertheless ordered Petitioner transported to the
courtroom for the colloquy concerning testifying in one’s own defense. {Id.) Upon arrival in the
courtroom, Petitioner changed his mind and invoked his right not to testify. {Id. at 1201-02.)
Although Petitioner did not attend the remainder of his trial, Petitioner was present for his
sentencing hearing. (Sentencing Tr. 2, annexed to Resp’ts Aff., Docket Entry No. 10-7.) During

7

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 8 of 42 PagelD #: 1871

the hearing, Petitioner turned his back to the Trial Court and swore at a courtroom officer who
instructed him to face forward. (Id. at 4.) When the Trial Court offered Petitioner an opportunity
to be heard before imposing sentence, Petitioner berated the Trial Court in vulgar terms.6 (Id. at
18.)
iv. The Trial Court’s discharge of two jurors
On the trial day following Petitioner’s mid-trial ejection from the courtroom, the Trial
Court began interviewing each juror to determine whether they could remain fair and impartial
after Petitioner’s outburst. (Jury Trial Tr. 987.) With trial counsel present, the Trial Court first
interviewed Juror No. 8, who admitted to saying to other jurors in the jury room that “cops are

!

crooked,” which she recharacterized moments later as “some cops are crooked.” (Id. at 9991000.) When questioned, Juror No. 8 stated that she did not realize her comments violated the
Trial Court’s order not to discuss the case or anything about the case. (Id. at 1000.) When asked

i

why she did not volunteer her prior interactions with law enforcement during jury selection
questioning, Juror No. 8 stated that her belief about police stemmed from “what [she had] seen
interacting with police in [her] neighborhood,” but that she “never had run-ins.” (Id. at 1002.)

:
'

6 Petitioner stated:
Pretty much regardless of no matter what the conviction was, I am
still innocent. No matter what y’all think, no matter what y’all say.
Whatever happened to y’all, that is bad, but I don’t feel sorry for
you because I didn’t do it, point blank period. I didn’t do it. And
from the beginning of this trial, I am saying I already know you,
Your Honor. You wasn’t on my side. The D.A., you know what I
am saying, like the whole trial, basically, y’all was sucking each
other off and 1 just feel bad that I wasn’t able to get sucked off. You
understand? So with all due respect from the bottom of my heart,
really, suck my dick. That is what I say. And that’s it. And I really
mean that too.
(Sentencing Tr. 18, annexed to Resp’ts Aff, Docket Entry No. 10-7.)
8

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 9 of 42 PagelD #: 1872

Juror No. 8 agreed to follow the Trial Court’s instructions going forward, and stated that she
would not allow her personal opinions concerning police to cause her to be unfair or impartial.
{Id. at 1001-02.)
Other jurors also discussed Juror No. 8 with the Trial Court and counsel. An alternate
juror stated that he overheard Juror No. 8 state “something about how you can’t — that all cops
are bad, basically. It’s like [ninety-seven] percent bad cops; then like [three] percent, I guess,
that you could trust.” {Id. at 1019-20.) Another juror also heard Juror No. 8 state that “none of
them can be trusted. That is just her opinion of police officers.” {Id. at 986.) This juror also
suggested that Juror No. 8 had withheld information during jury selection, stating that “she said
when she was asked during the questioning for jury duty that she did not want to raise her hand
because she didn’t want to bring any attention to herself.” {Id. at 986-87.)
The Trial Court and counsel also interviewed Juror No. 9. {Id. at 1011.) When asked
whether she had overheard jurors talking about “the believability of police officers, or anything
at all regarding the police,” Juror No. 9 admitted that she had been speaking about the topic,
including “some incidents [she had] seen in [her] neighborhood.” {Id.) This included an incident
in which police took money out of an elevator shaft and claimed it as their own. {Id. at 1011—
12.) Juror No. 9 stated that she did not “believe that all are bad, because I do speak with the ones
in my neighborhood. But I have seen things over [twenty-nine] years I’ve been living there.”
{Id. at 1012.) She stated that the discussion about police behavior arose following Petitioner’s
outburst and removal from the courtroom: “I said that I have seen things done and people blamed
for things that they haven’t done, because I have seen this.” {Id.) Juror No. 9 admitted to
recalling the Trial Court’s instruction to the jurors not to discuss their personal opinions about
the police, but remained silent when asked if she realized her comments violated that instruction.

9

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 10 of 42 PageiD #: 1873

{Id. at 1013.) She insisted she could remain fair and impartial, notwithstanding her comments.
{Id.)
After interviewing all the jurors and alternates, the Trial Court discharged both Juror No.
8 and Juror No. 9. {Id. at 1023-25.) With regard to Juror No. 8, the Trial Court found that she
purposefully withheld information during jury selection. {Id. at 1024.) The Trial Court found
Juror No. 8 not credible, given “her demeanor and her actions,” as well as the statements of the
other jurors. {Id.) Ruling that she was “grossly unqualified” based on facts unknown at the time
of jury selection and that she had engaged in “substantial” misconduct, the Trial Court removed
Juror No. 8 from the jury and substituted the next alternate juror in line. {Id.)
With regard to Juror No. 9, the Trial Court found that she had not “been candid and
forthcoming during the initial jury selection process,” because “she purposefully withheld
information from counsel, regarding her observations of, quote, ‘police misconduct.’” {Id. at
1024-25.) The Trial Court also found that Juror No. 9 disregarded its instructions not to speak
about the case. {Id. at 1025.) Finding that she had engaged in “substantial” misconduct and that
she was “no longer competent to serve” on the jury as a result of facts unknown at the time of
jury selection, the Trial Court removed Juror No. 9 from the jury and substituted the next
alternate juror in line. {Id.)
v.

Testimony challenged by Petitioner

During trial, Petitioner challenged the admission of certain testimony. Petitioner first
challenged the testimony of Detective Dan Perez, a late addition to the prosecution’s witness list,
{id. at 846-48), and subsequently challenged testimony from Officer Rashan LaCoste, {id. at
937-79).

10

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 11 of 42 PagelD #: 1874
i

1.

Detective Dan Perez’s challenged testimony

During trial, prosecutors sought to link Petitioner to a particular telephone number.7
Detective Perez testified that he had once interviewed Petitioner in connection with an unrelated
case years prior, during which Petitioner gave this particular number as his own. {Id. at 870.)
Wint also testified that this same telephone number belonged to Petitioner. {Id. at 637.)
However, telephone company records showed that the number was not registered to Petitioner.
{Id. at 801.)
Initially, prosecutors had not planned to call Detective Perez as a witness because they
expected to rely solely on Wint’s testimony to link Petitioner to the telephone number. {Id. at
845.) For that reason, they had not disclosed Detective Perez as a witness. {Id.) However,
Petitioner’s trial counsel unexpectedly challenged Petitioner’s connection to the telephone
number during the defense’s opening statement, suggesting that the jury should discredit Wint’s
testimony and noting that the telephone records did not name Petitioner. {Id. at 72-73.) When
prosecutors realized in the middle of trial that they needed additional evidence to tie Petitioner to
the telephone number, they sought the testimony of Detective Perez and made the relevant
discovery disclosures concerning his testimony. {Id. at 845.)
In objecting to Detective Perez’s testimony, Petitioner argued that the late disclosure
violated state discovery rules. {Id. at 844.) Petitioner’s trial counsel asked the Trial Court to bar
the witness from testifying or, in the alternative, to give a curative instruction to alert the jury to

7 According to the trial record, telephone company records showed that at the time of the
shootings, the cellular telephone associated with this number made calls to and received calls
from other numbers belonging to Petitioner’s accomplices. (Jury Trial Tr. 793-95, 799-805.) In
addition, the same records showed that at the time of the shootings, the cellular telephone
associated with this number connected to cellular towers near the crime scene because those
towers provided the strongest signal, suggesting that the person with this cellular telephone was
in the vicinity — even at — the crime scene at the time of the shootings. {Id.)
11

APPENDIX B

i

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 12 of 42 PagelD #: 1875

the late disclosure. {Id. at 844-45.) The Trial Court denied both requests, finding Detective
Perez’s testimony to be probative, that Petitioner’s trial counsel could not articulate any
prejudice from the late disclosure, and that prosecutors did not intentionally withhold the
disclosure from opposing counsel. {Id. at 846-48.)
2.

Officer LaCoste’s challenged testimony

Petitioner also challenged the testimony of Officer LaCoste regarding (1) Petitioner’s
possession of a handcuffkey, and (2) Petitioner’s prior interactions with Officer LaCoste.
A.

Possession of handcuff key

Officer LaCoste testified that after he arrested Petitioner, he took Petitioner to the
precinct to search Petitioner for weapons. {Id. at 937-38.) During the search, Officer LaCoste
saw Petitioner reach into his shoe and pull out a handcuffkey. {Id. at 937.) Officer LaCoste
tried to grab the key, but Petitioner put the key in his mouth and swallowed it. {Id. at 938-40.)
Defense counsel objected to this testimony, arguing that the testimony was both unfairly
prejudicial and not probative of guilt because Petitioner had multiple outstanding warrants at the
time of his arrest nine months after the shooting, and Petitioner could have possessed the
handcuff key for fear of arrest on those warrants, and not the shooting. {Id. at 11—12.) The Trial
Court permitted the testimony over defense counsel’s objection. {Id. at 13.)
B.

Petitioner’s prior interactions with Officer LaCoste

Petitioner also challenged Officer LaCoste’s testimony concerning his prior contact with
Petitioner. Initially, Officer LaCoste testified only about his arrest of Petitioner for the crimes
charged in this case. (Id. at 934-41.) On cross-examination, Petitioner’s trial counsel asked
Officer LaCoste about legal complaints and a federal lawsuit Petitioner had filed against Officer
LaCoste that concerned their prior interactions. {Id. at 944, 947.)

12

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 13 of 42 PagelD #: 1876

The Trial Court observed that Petitioner’s trial counsel “brought out the fact that [Officer
LaCoste] has prior knowledge of [Petitioner],” and reasoned that “[n]ow, [prosecutors] can
explore what that prior knowledge is, how [Officer LaCoste] got it, and [prosecutors] can also
bring out the fact about the lawsuits, so on and so forth.” {Id. at 947.) As the Trial Court
explained, “[t]he thrust of [Petitioner’s] cross[-]examination of [Officer LaCoste] was that
[Officer LaCoste] could not be believed, he is not reliable because he has hatred, bias against
[Petitioner].” {Id. at 965.) The Trial Court found that Petitioner’s cross-examination could
mislead the jury if prosecutors were not permitted to demonstrate the nature of Officer LaCoste’s
prior interactions with Petitioner. {Id. at 965-66.)
In light of its findings, the Trial Court permitted prosecutors to question Officer LaCoste
about his prior arrest of Petitioner and about the concurrent seizure of firearms from the premises
at which Petitioner was located at the time. {Id. at 967.) Officer LaCoste then testified that he
had previously arrested Petitioner at a location from which he also seized multiple firearms,
ammunition, a quantity of crack cocaine, and a banana clip.8 {Id. at 977-79.)
c.

Verdict and sentencing

The jury found Petitioner guilty of murder in the second degree, three counts of assault in
the first degree, one count of assault in the second degree, and one count of criminal possession
of a weapon in the second degree. (Sentencing Tr. 20.)9 The Trial Court sentenced Petitioner to
twenty-five years to life in prison for murder in the second degree, twenty-five years in prison

s « A banana clip is a semi-circular clip of ammunition for automatic weapons,
approximately ten inches long, capable of holding thirty rounds of ammunition.” Andrade v.
Baptiste, 583 N.E.2d 837, 838 n.l (Mass. 1992). The jury did not hear any description of or
definition for the term. (Jury Trial Tr. 979.)
9 The trial transcript filed with the Court does not contain the jury’s verdict. {See Jury
Trial Tr.) However, the Trial Court recited the convictions at sentencing.
13

APPENDIX B

!

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 14 of 42 PagelD #: 1877

plus five years post-release supervision for each of the three convictions for assault in the second
degree, seven years in prison plus five years post-release supervision for assault in the second
degree, and fifteen years in prison plus five years post-release supervision for criminal
possession of a weapon in the second degree. (Id.) The Trial Court “directed] that all of these
sentences shall run consecutively with each other but for the firearms violation where [the Trial
Court] directed] that that run concurrent,” for a total of 107 years in prison. (Id. at 21.)
d.

Appeals to the Appellate Division and Court of Appeals
i.

Appeal to the Appellate Division

Petitioner appealed the convictions to the Appellate Division, arguing that (1) the Trial
Court unconstitutionally ejected Petitioner from the courtroom and unconstitutionally refused to
let him return; (2) the Trial Court unconstitutionally discharged two Black female jurors in light
of their comments about police misconduct in their neighborhoods; (3) the Trial Court
unconstitutionally closed the courtroom for a substantive hearing; (4) the evidence was legally
insufficient to convict him because it was based solely on the uncorroborated testimony of an
accomplice; (5) the Trial Court improperly admitted evidence of uncharged crimes and gang
membership, improperly permitted prosecutors to offer testimony of a witness without sufficient
notice to Petitioner, and misled the jury by reading back only a portion of that witness’ testimony
on cross-examination; and (6) the 107-year sentence should be reduced in the interests ofjustice.
(Pet’r App. Div. Br. iii-iv, annexed to Resp’ts Affi, Docket Entry No. 10-8.) The Appellate
Division affirmed the convictions. Paige, 22 N.Y.S.3d at 223.
In particular, the Appellate Division upheld the Trial Court’s decision to bar Petitioner
from his trial. See id. at 225-27. In reaching its decision, the Appellate Division first reviewed
Petitioner’s behavior during court proceedings and held that his “actions throughout the course

14

APPENDIX B

i

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 15 of 42 PagelD #: 1878

of the trial constituted disruptive conduct warranting [Petitioner’s] exclusion from the
courtroom.” Id. at 225. Second, the Appellate Division upheld the Trial Court’s decision not to

I ■

credit Petitioner’s promise to behave appropriately if readmitted to the courtroom, and also held
that the Trial Court “did not improvidently exercise its discretion in refusing defense counsel’s
request to readmit [Petitioner] to the courtroom.” Id. at 226. Finally, the Appellate Division held

;

that the Trial Court “did not improvidently exercise its discretion in declining defense counsel’s
request to permit [Petitioner] to view the proceedings from a remote location.” Id.
The Appellate Division also upheld the Trial Court’s removal of the two jurors. See id. at
226-28. With regard to Juror No. 8, the Appellate Division upheld her removal for largely the
same reasons as the Trial Court. See id. at 226-27. With regard to Juror No. 9, the Appellate
Division noted that Petitioner’s objection to this juror’s removal at trial differed from his
objection on appeal. See id. at 228. Accordingly, the Appellate Division found Petitioner’s
objection “unpreserved for appellate review.” Id. Ruling in the alternative, the Appellate
Division also upheld the Trial Court’s removal of Juror No. 9 on the merits, again relying on the
same reasoning as the Trial Court. See id.
In addition, the Appellate Division reviewed the Trial Court’s decision to permit
Detective Perez’s testimony about Petitioner’s telephone number without a curative instruction,
even though prosecutors did not disclose Detective Perez as a witness until after the parties’
opening statements. See id. at 229. While the Appellate Division did not explicitly state whether
or not the Trial Court erred, the Appellate Division did hold that “any prejudice caused by the
[Trial Court’s] refusal to provide a curative instruction after permitting [prosecutors] to add a
witness after the parties’ opening statements was not so great as to deprive [Petitioner] of a fair
trial.” Id.

15

APPENDIX B

I

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 16 of 42 PagelD #: 1879

In allowing Officer LaCoste to testify about Petitioner’s possession of a handcuff key, the
Appellate Division found that the Trial Court committed error but found the error to be harmless.
Id. at 226.
The Appellate Division also found that the Trial Court should not have permitted Officer
LaCoste “to testify that when he arrested [Petitioner] on a previous occasion for crimes unrelated
to the crimes charged in this case, various guns and ammunition were recovered from the
residence where [Petitioner] was located at the time of that arrest,” but found the error harmless.
Id. at 229.
ii.

Appeal to the Court of Appeals

Petitioner sought leave to appeal from the Court of Appeals, making the same arguments
made before the Appellate Division. (Pet’r Ct. App. Br. 1—2, annexed to Resp’ts Aff., Docket
Entry No. 10-11.) The Court of Appeals denied leave to appeal. Paige, 27N.Y.3d at 1073.
Petitioner moved for reconsideration, focusing on his argument concerning his ejection from the
courtroom. (Pet’r Ct. App. Reh’g. Br. 1, annexed to Resp’ts Aff., Docket Entry No. 10-12.) The
Court of Appeals denied rehearing. Paige, 27 N.Y.3d at 1137.
e.

Habeas petition

On December 9, 2016, Petitioner, represented by counsel, filed a petition for a writ of
habeas corpus with the Court. (Pet.) Petitioner made one claim alleging that the Trial Court
unconstitutionally excluded him from the courtroom during trial in violation of the Sixth
Amendment. (Pet’r Br. 20-37; Pet’r Reply 3-13, Docket Entry No. 11.)
On February 8, 2017, Petitioner filed a pro se motion for leave to amend his petition with
additional claims that his counsel did not raise in his initial petition. (Mot. to Amend.) By Order
dated February 13,2017, the Court granted the motion. (Order dated Feb. 13, 2017.) Petitioner,

16

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 17 of 42 PagelD #: 1880

acting pro se, subsequently filed supplemental briefs, alleging additional claims. First, Petitioner
alleges that the Trial Court unconstitutionally discharged Juror No. 8 and Juror No. 9 in violation
of the Sixth Amendment. (Pet’r Suppl. Initial Br. 16-25.) Second, Petitioner alleges that the
Trial Court unconstitutionally permitted testimony from Detective Perez and Officer LaCoste in
violation of his right to a fundamentally fair trial under due process principles. (Pet’r Suppl.
Initial Br. 26-36; Pet’r Suppl. Reply 17.) Finally, Petitioner argues that a concession by
Respondents in their briefing before this Court demonstrates that the Appellate Division
unreasonably determined the facts related to the strength of the telephone company records
linking Petitioner to the crime. (Pet’r Suppl. Reply f 8.)
II.

Discussion
a.

Standard of review

Under 28 U.S.C. § 2254, as amended by the Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”), an application for a writ of habeas corpus by a person in custody
pursuant to a state court judgment may only be brought on the grounds that his or her custody is
“in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a).
A petitioner is required to show that the state court decision, having been adjudicated on the
merits, is either “contrary to, or involved an unreasonable application of, clearly established
Federal law” or “based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d); see also Shoop v. Hill, — U.S. —
, —, 139 S. Ct. 504,406 (2019) (per curiam) (“[Hjabeas relief may be granted only if the state
court’s adjudication resulted in a decision that was contrary to, or involved an unreasonable
application of, Supreme Court precedent that was clearly established at the time of the
adjudication.” (citation and internal quotation marks omitted)); Kernan v. Hinojosa, — U.S. —,

17

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 18 of 42 PagelD #: 1881

136 S. Ct. 1603,1604 (2016) (per curiam); Hittson v. Chatman, — U.S. —, —, 135 S. Ct.
2126,2126 (2015); Woods v. Donald, — U.S. —, —, 135 S. Ct. 1372,1374 (2015) (per curiam);
Johnson v. Williams, 568 U.S. 289, 292 (2013). “An ‘adjudication on the merits’ is one that ‘(1)
disposes of the claim on the merits, and (2) reduces its disposition to judgment.

Bell v. Miller,

500 F.3d 149, 155 (2d Cir. 2007) (quoting Sedan v. Kuhlman, 261 F.3d 303, 313 (2d Cir. 2001));
see also Kernan, 136 S. Ct. at 1606; Harrington v. Richter, 562 U.S. 86, 98 (2011). Under the
section 2254(d) standards, a state court’s decision must stand as long as “fairminded jurists could
disagree on the correctness of the ... decision.” Richter, 562 U.S. at 101 (citation and internal
quotation marks omitted).
For the purposes of federal habeas review, “clearly established law” is defined as “the
holdings, as opposed to dicta, of [the Supreme] Court’s decisions as of the time of the relevant
state-court decision.” Williams v. Taylor, 529 U.S. 362,412 (2000); see also Glebe v. Frost, 135
S. Ct. 429,431 (2014) (per curiam) (“As we have repeatedly emphasized, however, circuit
precedent does not constitute clearly established Federal law, as determined by the Supreme
Court [under] § 2254(d)(1).”); Parker v. Matthews, 567 U.S. 37,48 (2012) (per curiam) (“The
Sixth Circuit also erred by consulting its own precedents, rather than those of this Court, in
assessing the reasonableness of the [state] [c]ourt’s decision.”). A state court decision is
“contrary to,” or an “unreasonable application of,” clearly established law if the decision (1) is
contrary to Supreme Court precedent on a question of law; (2) arrives at a conclusion different
than that reached by the Supreme Court on “materially indistinguishable” facts; or (3) identifies
the correct governing legal rule but unreasonably applies it to the facts of the petitioner’s case.
Williams, 529 U.S. at 412-13. In order to establish that a state court decision is an unreasonable
application of federal law, the state court decision must be “more than incorrect or erroneous.”

18

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 19 of 42 PagelD #: 1882

Lockyer v. Andrade, 538 U.S. 63, 75 (2003). The decision must be “objectively unreasonable.”
Id.
A court may also grant habeas relief if the state court adjudication “resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.” 28 U.S.C. § 2254(d)(2). “[S]tate-court factual determinations [are
not] unreasonable ‘merely because [a federal post-conviction court] would have reached a
different conclusion in the first instance.’” Brumfield v. Cain, 576 U.S. 305, 335 (2015)
(Thomas, I, dissenting) (quoting Wood v. Allen, 558 U.S. 290, 301 (2010)). Rather, factual
determinations made by the state court are “presumed to be correct,” and the petitioner bears “the
burden of rebutting the presumption of correctness by clear and convincing evidence.” 28
U.S.C. § 2254(e)(1). Even if‘“[Reasonable minds reviewing the record might disagree’ about
the finding in question, ‘on habeas review that does not suffice to’” overturn a state court factual
determination. Wood, 558 U.S. at 301 (quoting Rice v. Collins, 546 U.S. 333, 341—42 (2006)). A
court may overturn a state court’s factual determination only if the record cannot “plausibly be
viewed” as consistent with the state court’s fact-finding or if “a reasonable factfinder must
conclude” that the state court’s decision was inconsistent with the record evidence. Rice, 546
U.S. at 340-41.
b.

Petitioner’s ejection from the courtroom and refusal of reentry

Counsel for Petitioner brings one claim on Petitioner’s behalf, arguing that the Trial
Court unconstitutionally ejected him from the courtroom and unconstitutionally prohibited him
from returning. (Pet’r Br. 20-37; Pet’r Reply 3-13.) Because the state court’s decision neither
contradicts nor unreasonably applies clearly established Supreme Court precedent, nor
unreasonably determines the facts, the Court denies habeas relief as to this claim.

19

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 20 of 42 PagelD #: 1883

“[A] defendant has a due process right to be present at a proceeding ‘whenever his
presence has a relation, reasonably substantial, to the fulness of his opportunity to defend against
the charge.” United States v. Gagnon, 470 U.S. 522, 526 (1985) (quoting Snyder v.
Massachusetts, 291 U.S. 97, 105-06 (1985)). Put another way, “a defendant is guaranteed the
right to be present at any stage of the criminal proceeding that is critical to its outcome if his
presence would contribute to the fairness of the procedure.” Kentucky v. Stincer, 482 U.S. 730,
745 (1987); see also Norde v. Keane, 294 F.3d 401,411 (2d Cir. 2002) (“A criminal defendant
has the right to be ‘present at all stages of the trial.

(quoting Faretta v. California, 422 U.S.

806, 820 n.15 (1975))). “[T]he presence of a defendant is a condition of due process to the
extent that a fair and just hearing would be thwarted by his absence, and to that extent only.”
Gagnon, 470 U.S. at 526 (quoting Snyder, 291 U.S. at 105-06).
“However, that right [to be present at all stages of the trial] is not absolute and may be
waived, either explicitly or by the defendant’s conduct.” Norde, 294 F.3d at 411 (citing Illinois
v. Allen, 397 U.S. 337, 342-43 (1970)). Thus, “[t]he court may bar from the courtroom a
criminal defendant who disrupts a trial.” Chambers v. NASCO, Inc., 501 U.S. 32,44 (1991); see
also Jones v. Murphy, 694 F.3d 225, 238 (2d Cir. 2012) (“[A] defendant may constructively
waive his rights to be present at trial by disruptive behavior.” (citing Allen, 397 U.S. at 343)).
Courts possess the power to exclude unruly defendants from their own trials because “[i]t would
degrade our country and our judicial system to permit our courts to be bullied, insulted, and
humiliated and their orderly progress thwarted and obstructed by defendants brought before them
charged with crimes.” Allen, 397 U.S. at 346. “[T]rial judges confronted with disruptive,
contumacious, stubbornly defiant defendants must be given sufficient discretion to meet the
circumstances of each case.” Id. at 343.

20

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 21 of 42 PagelD #: 1884

To remove a defendant from a trial, the defendant should ideally be “warned by the judge
that he will be removed if he continues his disruptive behavior.” Id. However, the Second
Circuit has questioned whether clearly established Federal law makes this “warning ... a
requirement in every situation.” Gilchrist v. O’Keefe, 260 F.3d 87, 96 (2d Cir. 2001).
The primary requirement for involuntary removal is that a defendant must “insist[] on
conducting himself in a manner so disorderly, disruptive, and disrespectful of the court that his
trial cannot be carried on with him in the courtroom.” Id. (quoting Allen, 397 U.S. at 343).
Although the defendant in Allen behaved in an extremely disruptive manner — even threatening
the trial judge’s life — the Second Circuit has suggested that clearly established Federal law
does not set Allen-level misconduct as the minimum threshold for removing a defendant from the
courtroom: to the contrary, the Second Circuit has upheld, on federal post-conviction review, a
state court’s removal of a defendant who exhibited “significantly less egregious” behavior —
repeatedly talking out of turn, notwithstanding the trial judge’s order to remain quiet — than did
the Allen defendant. Norde, 294 F.3d at 413.
“Once lost, the right to be present can, of course, be reclaimed as soon as the defendant is
willing to conduct himself consistently with the decorum and respect inherent in the concept of
courts and judicial proceedings.” Allen, 397 U.S. at 343. According to the Second Circuit,
clearly established Supreme Court precedent requires a defendant to “satisfactorily demonstrate^
that he would not be violent or disruptive” in order to obtain readmission to his trial, putting the
burden on the defendant to justify his return to the courtroom. Jones, 694 F.3d at 240 (citing
Allen, 397 U.S. at 343). On federal post-conviction review, the court must review a trial judge’s
decision to remove a defendant from the courtroom with two levels of deference: first, the
deference afforded to any decision to remove a defendant from the courtroom, and second, the

21

APPENDIX B

<

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 22 of 42 PagelD #: 1885

deference afforded to any state court decision on federal post-conviction review. Id. at 241. In
other words, a court may order post-conviction relief on such a claim only if the state court
unreasonably determined that the trial court did not abuse its discretion. Cf. id. at 240.
The Court rejects Petitioner’s claim because none of Petitioner’s arguments demonstrate
that habeas relief is warranted.
i.

The Trial Court’s lack of warning to Petitioner

First, Petitioner argues that the Trial Court did not warn him that his behavior would
preclude his attendance at trial. The Court finds that Petitioner is not entitled to habeas relief on
this ground.
The Second Circuit has indicated that no clearly established Supreme Court precedent
requires a warning in all circumstances prior to ejecting a defendant from trial. Gilchrist, 260
F.3d at 96 (noting that the Supreme Court upheld a courtroom ejection without warning where
the defendant clearly knew of his right to be present at trial and that the trial would continue in
his absence). Petitioner cites no clearly established Supreme Court precedent

and this Court’s

independent research has not uncovered any — requiring a warning under the circumstances
presented by Petitioner’s conduct. Thus, the Appellate Division could not have unreasonably
applied or contradicted clearly established Supreme Court precedent since that precedent does
not exist.
Even if clearly established Supreme Court precedent did require a warning in Petitioner’s
circumstances, the Court cannot find that the Appellate Division unreasonably determined that
Petitioner “had been repeatedly warned by the [Tjrial [Cjourt that if he did not desist in such
conduct, he would be barred from attending the remainder of the trial.” Paige, 22 N.Y.S.3d at
225. The record demonstrates that the Trial Court gave Petitioner multiple warnings, beginning

22

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 23 of 42 PagelD #: 1886

with Parker10 warnings at the trial’s outset. (Jury Trial Tr. 993-94.) During the Parker
warnings, the Trial Court “admonished” Petitioner “that if he frustrated or delayed his production
by the Department of Corrections [it] would be considered a waiver of his right to be present.”
i

(Id.)
During trial, the Trial Court again warned Petitioner that it would not permit Petitioner to
delay trial proceedings, irrespective of whether his family had difficulty with custodial personnel
when attempting to provide him with trial clothing. (Id. at 157-58.) The Trial Court explicitly
stated that it would “not tolerate” further delays. (Id. at 157.)
The Trial Court warned Petitioner on a third occasion that the Trial Court would not
permit him to delay the trial by removing his clothing during short recesses. (Id. at 643—44.)
During the course of this warning, the Trial Court made a finding, based on communication from
“the courtroom officer,” that Petitioner’s “disrobing during break” was “why it is taking [fifteen],
[twenty] minutes to get [Petitioner] in this courtroom at the appropriate time.” (Id.) The Trial
Court explicitly told Petitioner that in the event of another “voluntary tactic to delay these
proceedings,” the Trial Court may decide that it would “not have [Petitioner] in the courtroom.”
(Id.)
Only after its fourth warning — when Petitioner’s outburst during live testimony delayed
court proceedings in front of the jury — did the Trial Court follow through with its prior
indication that it would conduct the trial without Petitioner. (Id. at 979.) Even during this
incident, the Trial Court alerted Petitioner that he could avoid expulsion if he would “[b]e quiet,”

10 See People v. Parker, 57 N.Y.2d 136,141 (1982) (“In order to effect a voluntary,
knowing and intelligent waiver [of the right to be present at trial], the defendant must, at a
minimum, be informed in some manner of the nature of the right to be present at trial and the
consequences of failing to appear for trial....”).
23

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 24 of 42 PagelD #: 1887

and that “[i]f you want to testify, you can take the stand.” {Id.) In the context of the Trial
Court’s prior admonitions to Petitioner, a plausible reading of this statement is that the Trial
Court was warning Petitioner that his conduct constituted grounds for expulsion. The Trial Court
itself later characterized its statement by saying that “[t]he [c]ourt immediately warned
[Petitioner] to be quiet.” {Id. at 992.) Only after Petitioner continued to obstruct the trial did the
Trial Court order Petitioner removed. {Id. at 979.)
Accordingly, because no clearly established Supreme Court precedent requires a warning
before ejecting a defendant from his trial under the circumstances presented in this case, the
Appellate Division’s decision could not have contradicted or unreasonably applied clearly
established Federal law concerning a pre-ejection warning. Moreover, even if warnings were
required, as Petitioner argues, a plausible reading of the record demonstrates that the Trial Court
repeatedly warned Petitioner that his conduct could result in his ejection from the trial.
Therefore, the Court cannot conclude that the Appellate Division unreasonably determined the
facts when it cited the Trial Court’s repeated warnings. See Paige, 22 N.Y.S.3d at 225.
ii.

The nature of Petitioner’s misconduct

Second, Petitioner argues that he engaged in only a single outburst, and that any other
misconduct is not the type of behavior the Trial Court could consider when deciding whether or
not to eject a defendant from the courtroom. Because no clearly established Supreme Court
precedent supports Petitioner’s point, the Court rejects this argument.
Petitioner cites both federal courts of appeals decisions and a state court decision to
establish that “behavior that is merely disruptive is insufficient under Allen to justify removal.”
(Pet’r Br. 30); see also United States v. Ward, 598 F.3d 1054, 1058 (8th Cir. 2010); Badger v.
Cardwell, 587 F.2d 968, 979 (9th Cir. 1978); Tatum v. United States, 703 A.2d 1218, 1223 (D.C.

24

APPENDIX B f

Case 1:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 25 of 42 PagelD #: 1888

1997). Indeed, the Second Circuit has observed that “behavior that[] [is] contentious and
improper” will not automatically “warrant the extreme response of involuntary exclusion.”
Jones, 694 F.3d at 238.
However, as the Supreme Court continues to make clear, courts of appeals precedent is
not “clearly established Federal law, as determined by the Supreme Court of the United States.”
28 U.S.C. § 2254(d)(2); see also Parker, 567 U.S. at 48—49 (“The Sixth Circuit also erred by
consulting its own precedents, rather than those of [the Supreme] Court, in assessing the
reasonableness of the [state] [c]ourt’s decision.”). Petitioner cites no Supreme Court decision
holding that out-of-court misconduct that creates in-court disruption cannot constitute grounds
for the expulsion of a criminal defendant from trial. Contrary to Petitioner’s argument, clearly
established Supreme Court precedent holds that misconduct warrants removal, not if that conduct
“makes it impossible to conduct the trial with the defendant in the courtroom,” (Pet’r Br. 30), but
rather, if that conduct “permit[s] our courts to be bullied, insulted, and humiliated and their
orderly progress thwarted and obstructed by defendants brought before them charged with
crimes,” Allen, 397 U.S. at 346.
The Trial Court found that Petitioner’s conduct, viewed as a whole, constituted a
sustained effort “to delay the proceedings or frustrate the proceedings.” (Jury Trial Tr. 1200.)
Accordingly, the Appellate Division did not contradict or unreasonably apply existing Supreme
Court precedent when it held that Petitioner’s conduct was of the type warranting exclusion. See
Paige, 22 N.Y.S.3d at 225.
iii. Petitioner’s level of misconduct
Third, Petitioner argues that the totality of his misconduct — even considering the pre­
outburst incidents — did not rise to the level warranting removal, contrasting his misconduct

25

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 26 of 42 PagelD #: 1889

with the more outrageous misbehavior of the defendant in Allen. Because no clearly established
Supreme Court precedent sets Allen as the minimum threshold for removal from the courtroom
and because Petitioner engaged in a pattern of delaying conduct, the Court rejects this argument.
See Norde, 294 F.3d at 413 (holding that “significantly less egregious” misconduct than the
misconduct described in Allen can warrant removal from the courtroom).
The record demonstrates that Petitioner delayed proceedings by refusing to reenter the
courtroom without receiving new trial clothing from his family, despite the family’s noncompliance with the security procedures in place for providing an incarcerated defendant with
trial clothing. (Jury Trial Tr. 157-58.) In addition, the record demonstrates that Petitioner
delayed the trial by removing his clothing during short recesses, precluding his transport back
into the courtroom. {Id. at 643-44.) The Trial Court made an on-the-record finding, based on
communication from “the courtroom officer,” that Petitioner’s “disrobing during break” was
“why it is taking [fifteen], [twenty] minutes to get [Petitioner] in this courtroom at the
appropriate time.” {Id.) Later in the trial, the Trial Court found that Petitioner “was consistently
late, would take his clothes off during luncheon recesses and insure that we were late at all
times.” {Id. at 983.) A plausible reading of these findings is that the Trial Court noticed these
delays on multiple prior occasions but did not place its observations on the record at every
occurrence. This conclusion is supported by the Trial Court’s later finding that Petitioner “was
consistently late, would take his clothes off during luncheon recesses and insure that we were
late at all times.” {Id.)
Following these incidents, Petitioner again disrupted the trial with an outburst during
testimony in front of the jury. {Id. at 979.) The Trial Court later described Petitioner’s conduct
during this outburst as “boisterous,” noting that Petitioner “started shouting obscenities at the

26

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 27 of 42 PagelD #: 1890

witness in the presence of the jury.” {Id. at 992-93.) The Trial Court noted that Petitioner
ignored its “lawful directive” to stop interrupting the testimony, then “stood up and in front of
the jury, shouted more obscenities,” and required “two court officers [to] le[a]d [Petitioner] out
of the courtroom” because he “resisted being cuffed by the officers.” {Id. at 983, 992-93.)
When trial next convened, Petitioner was absent. {Id. at 990.) Having received
information from court staff that Petitioner “ha[d] refused to come to court, because he allegedly
wanted a haircut,” the Trial Court ordered trial to proceed without Petitioner. {Id. at 993.)
Petitioner’s attorney suggested that the fault for Petitioner’s failure to appear rested with
custodial personnel for failing to place him on the appropriate bus from the jail to the courthouse.
{Id. at 1170.) The Trial Court, observing that Petitioner had “zero credibility before this [c]ourt,”
rejected this explanation. {Id. at 1171.) The Trial Court instead credited the information it
received from the custodial personnel that Petitioner was at fault for visiting the jail barber
instead of boarding the transport bus. (Id.) Petitioner points to no clear and convincing evidence

f

I

to undermine the Appellate Division’s decision to credit the Trial Court’s finding. See 28 U.S.C.
§ 2254(e)(1).
Finally, the Trial Court found that Petitioner had been coordinating with his mother, who
had been attending the trial, in order to disrupt the proceedings. (Jury Trial Tr. 1174.) When the
Trial Court ejected Petitioner from the courtroom due to his outburst, the Trial Court observed
Petitioner’s “mother, who had been sitting in the audience observing the trial, st[an]d up and
start[] shouting obscenities in the direction of this [c]ourt in the presence of this jury.” {Id.
at 993.) Prosecutors noted on the record that Petitioner’s mother attended every day of
Petitioner’s trial except for the day Petitioner visited the jail barber rather than board the bus to

27

APPENDIX B

Case l:16-cv-06802-'MKB Dbcument 19 Filed 07/08/20 Page 28 of 42 PagelD #: 1891

the courthouse, suggesting Petitioner warned her ahead of time that he would not be coming to
court that day and she need not show up either. (Id. at 1172.)
Given the evidence in the record, the Appellate Division did not unreasonably uphold the
Trial Court’s findings of fact supporting the Trial Court’s decision to eject Petitioner from his
trial. In addition, given the Trial Court’s findings, the Appellate Division did not contradict or
unreasonably apply clearly established Supreme Court precedent when it upheld the Trial Court’s
decision to eject Petitioner. See Paige, 22 N.Y.S.3d at 225.
iv.

Presumption of voluntary absence

Fourth, Petitioner argues that the Trial Court should not have presumed that Petitioner
voluntarily absented himself from proceedings because he was in state custody during trial, and
the custodial authorities were responsible for transporting Petitioner to trial. Because a plausible
reading of the record shows that Petitioner voluntarily took actions that prevented his appearance
in the courtroom, this argument does not support the relief requested.
As discussed above, the Trial Court received information from court staff that Petitioner
“has refused to come to court, because he allegedly wanted a haircut,” (Jury Trial Tr. 993.)
Petitioner’s attorney indicated that the fault for Petitioner’s failure to appear rested with custodial
personnel for failure to place him on the appropriate bus from the jail to the courthouse. (Id.
at 1170.) The Trial Court, observing that Petitioner had “zero credibility before this [cjourt,”
rejected this explanation. (Id. at 1171.) The Trial Court instead credited the information it had
received from custodial personnel that Petitioner was at fault for visiting the jail barber instead of
boarding the transport bus. (Id.) In addition, prosecutors noted on the record that Petitioner’s
mother was absent for the first time that day despite having attended every prior day of
Petitioner’s trial, suggesting Petitioner warned his mother ahead of time that she could skip court

28

APPENDIX B

i

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 29 of 42 PagelD #: 1892

because he would not be in attendance. (Id. at 1172.) This record supports the Trial Court’s
conclusion that Petitioner had voluntarily absented himself from the trial. Thus, the Appellate
Division did not unreasonably determine the facts when it deferred to the Trial Court’s finding.
See Paige, 22 N.Y.S.3d at 225.
Citing to lower court precedent, Petitioner further contends that the Trial Court was
required to bring him to the courtroom to obtain an in-court waiver prior to conducting the trial
without Petitioner, and should not have relied on information from courtroom personnel to make
the voluntariness determination. (Pet’r Br. 27-28 & n.7 (first citing United States v. Gordon, 829
F.2d 119,125-26 (D.C. Cir. 1987); then citing United States v. Fontanez, 878 F.2d 33, 36-37 (2d
Cir. 1989); then citing Cross v. United States, 325 F.2d 629, 631-33 (D.C. Cir. 1963); then citing
Evans v. United States, 284 F.2d 393, 395 (6th Cir. 1960); and then citing People v. Epps, 37
N.Y.2d 343, 350 (1975)).) Assuming without deciding that Petitioner’s reading of the lower
court precedent is correct,11 the Court cannot grant habeas relief on account of rulings contrary to
lower court precedent. See Parker, 567 U.S. at 48-49. Petitioner cites no clearly established
Supreme Court precedent supporting this argument, and the Court’s independent review has not
located any.
Petitioner also argues that the Trial Court “improperly shifted the burden to defense
counsel to prove that his incarcerated client’s absence was not voluntary.” (Pet’r Br. 28-29.)
The Court disagrees with Petitioner’s characterization of the record. The record instead shows

11 The Court disagrees with Petitioner’s reading of the Second Circuit precedent. The
Second Circuit has held only that a trial court “must conduct a record inquiry to determine
whether the defendant’s absence was ‘knowing and voluntary’ and without sound excuse,” not
that the defendant must himself be present for this inquiry. See United States v. Tureseo, 566
F.3d 77, 83 (2d Cir. 2009). In fact, a trial court may dispense even with this limited inquiry
where “the facts are clear and undisputed.” United States v. Fontanez, 878 F.2d 33, 36 (2d Cir.
1989).
29

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 30 of 42 PagelD #: 1893

that after reciting a host of evidence, (Jury Trial Tr. 991-94), the Trial Court found that Petitioner
“ha[d] voluntarily absented himself from these proceedings, knowing that the trial [would]
continue in his absence,” (id. at 994). In its very next sentence, the Trial Court stated that
“[c]ounsel for [Petitioner] has been unable to provide this [c]ourt with any evidence contrary to
the reasons given by the court staff as to why [Petitioner] is not in court today.” (Id. at 994-95.)
The Trial Court never used the word “burden,” nor did it state that Petitioner’s counsel must
“demonstrate,” “establish,” or “prove” anything. Read in context, the Trial Court’s statement
merely places on the record that the evidence on which the Trial Court relied — the same
evidence that the Trial Court had just cited at length — was undisputed. The Trial Court did not
shift the burden to Petitioner.
v.

Denial of Petitioner’s readmission

i,

Finally, Petitioner argues that the Trial Court should have readmitted him to the
courtroom after his defense counsel conveyed Petitioner’s willingness to conduct himself
appropriately. The Court finds that Petitioner is not entitled to relief on this ground for two
reasons. First, the Appellate Division did not contradict nor unreasonably apply clearly
established Supreme Court precedent by permitting the Trial Court to weigh the evidence to
determine whether Petitioner genuinely offered to respect courtroom decorum or whether
Petitioner’s representation was a farce. Second, the Appellate Division did not unreasonably
determine the facts by upholding the Trial Court’s finding that Petitioner’s promise to behave
was not genuine.
As to the law, the Appellate Division did not contradict or unreasonably apply clearly
established Supreme Court precedent. Petitioner is correct that an ejected defendant must be
allowed readmission “as soon as the defendant is willing to conduct himself consistently with the

30

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 31 of 42 PagelD #: 1894

decorum and respect inherent in the concept of courts and judicial proceedings.” Allen, 397 U.S.
at 343. Notably, Allen explains that a defendant must be “willing” to behave appropriately; Allen
does not hold that a defendant may merely “represent his willingness” to behave appropriately,
whether or not that representation is genuine. Id.
According to the Second Circuit, clearly established Supreme Court precedent does not
adopt the interpretation of Allen argued by Petitioner. Jones, 694 F.3d at 240. Rather, the
Second Circuit has held that Allen requires a defendant to “satisfactorily demonstrate^ that he
would not be violent or disruptive” in order to obtain readmission to his trial, putting the burden
on the defendant to justify his return to the courtroom. Jones, 694 F.3d at 240. This is consistent
with Allen’s admonition that “trial judges confronted with disruptive, contumacious, stubbornly
defiant defendants must be given sufficient discretion to meet the circumstances of each case.”
See Allen, 397 U.S. at 343. This Court cannot conclude that the Appellate Division unreasonably
applied clearly established Supreme Court precedent by concluding that this discretion includes
the authority to gauge the genuineness of a defendant’s promise to respect courtroom decorum.
See Paige, 22 N.Y.S.3d at 226.
As to the facts, the Appellate Division did not unreasonably determine the facts when it
upheld the Trial Court’s determination that Petitioner’s promise to respect courtroom decorum
was not genuine. On federal post-conviction review, a court must review a trial judge’s decision
to remove a defendant from the courtroom with two levels of deference: first, the deference
afforded to any decision to remove a defendant from the courtroom, and second, the deference
afforded to any state court decision on federal post-conviction review. Jones, 694 F.3d at 241.
In other words, this Court may order post-conviction relief on this claim only if the state court
unreasonably determined that the Trial Court did not abuse its discretion. Cf. id. at 240.

31

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 32 of 42 PagelD #: 1895

When the Trial Court rejected Petitioner’s contention that he was willing to conduct
himself appropriately, the Trial Court had before it a substantial record supporting its decision.
The Trial Court had all the evidence leading up to Petitioner’s ejection: Petitioner’s delays over
receiving trial clothing from his family, (Jury Trial Tr. 157-58), his disrobing during court
recesses, {id. at 643-44), his coordination with his mother to disrupt the proceedings, {id.
at 1174), and his outburst before the jury, {id. at 979), including physical resistance to being
restrained, {id. at 983, 992-93). When the Trial Court faced the question of whether to readmit
Petitioner to the courtroom, Petitioner chose to get a haircut at the detention facility rather than
board the appropriate transport to the courthouse. {Id. at 993, 1171.) At this point, the Trial
Court barred Petitioner from the trial. {Id. at 993.) The Court cannot say that the Appellate
Division unreasonably determined the facts when it upheld the Trial Court’s decision that
Petitioner lacked a genuine “willingfness] to conduct himself consistently with the decorum and
respect inherent in the concept of courts and judicial proceedings.” Allen, 397 U.S. at 343.
Even if this record were insufficient, events occurring after the Trial Court’s decision not
to readmit Petitioner reinforce the Trial Court’s finding that Petitioner was not willing to conduct
himself appropriately, notwithstanding his trial counsel’s representations to the contrary.
Although Petitioner had insisted throughout trial that he did not wish to testify, Petitioner
claimed to have changed his mind after being ejected from the courtroom. (Jury Trial Tr. 1173.)
Although the Trial Court suspected that this new desire to testify was a “delaying, stalling tactic
on [Petitioner’s] part” and that his request was “another example of [Petitioner] trying to delay
the proceedings or frustrate the proceedings,” the Trial Court nevertheless ordered Petitioner
transported to the courtroom to conduct the colloquy concerning testifying in his own defense.
{Id.) Consistent with the Trial Court’s prediction, Petitioner changed his mind and declined to

32

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 33 of 42 PagelD #: 1896

testify when he arrived in the courtroom. {Id. at 1201-02.) Petitioner presents no clear and
convincing evidence to contest the Appellate Division’s decision to uphold the Trial Court’s
determination that Petitioner never wanted to testify but instead merely wanted to delay the
proceedings. See 28 U.S.C. § 2254(e)(1).
In addition, Petitioner displayed further disrespect for the Trial Court and the judicial
system at his sentencing hearing, suggesting that he never had any intention of “conducting]
himself consistent^ with the decorum and respect inherent in the concept of courts and judicial
proceedings.” Allen, 397 U.S. at 343. Shortly after the beginning of the hearing, Petitioner
turned his back to the Trial Court and swore at a courtroom officer who instructed Petitioner to
face forward. (Sentencing Tr. 4.) When the Trial Court offered Petitioner an opportunity to be
heard before the imposition of sentence, Petitioner offered a profanity-laced tirade about how
during “the whole trial,” the Trial Court and the prosecution were “sucking each other off and
[he] just fe[lt] bad that [he] wasn’t able to get sucked off.” {Id. at 18.) Petitioner then told the
Trial Court to, “with all due respect from the bottom of [his] heart, really, suck [his] dick.” {Id.)
Given the totality of the record evidence, the Appellate Division did not unreasonably
determine the facts by finding “that the record in this case does not support [Petitioner’s]
contention that, after he was removed from the courtroom for his profanity-ridden outburst, he
was willing to ‘conduct himself consistently with the decorum and respect inherent in the
concept of courts and judicial proceedings.’” See Paige, 22 N.Y.S.3d at 226 (quoting Allen, 397
U.S. at 343).
vi.

Conclusion with regard to the ejection of Petitioner from the
courtroom

In short, Petitioner has not shown that the Appellate Division either contradicted or
unreasonably applied clearly established Supreme Court precedent when upholding the Trial

33

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 34 of 42 PagelD #: 1897

Court’s decision to eject Petitioner from the courtroom and deny his readmission. Petitioner has
likewise failed to show that the Appellate Division unreasonably determined the facts relevant to
either the ejection or the denial of readmission. Accordingly, the Court denies Petitioner’s
request for habeas relief as to this claim.
c.

Dismissal of jurors

In his pro se submission, Petitioner’s first claim is that the Trial Court unconstitutionally
discharged two jurors during trial. (Pet’r Suppl. Initial Br. 17-25.) This claim does not entitle
Petitioner to relief because no clearly established Supreme Court precedent entitled Petitioner to
keep the two jurors on the jury.
Clearly established Supreme Court precedent entitles criminal defendants “to a fair trial
before an impartial jury.” Rivera v. Illinois, 556 U.S. 148, 158 (2009). “Jurors ... need not enter
the box with empty heads in order to determine the facts impartially. ‘It is sufficient if the
juror[s] can lay aside [their] impression[s] or opinion[s] and render a verdict based on the
evidence presented in court.’” Skilling v. United States, 561 U.S. 358, 398-99 (2010) (quoting
Irvin v. Dowd, 366 U.S. 717, 723 (1961)).
Petitioner argues that the converse is also true: that if a juror “can lay aside his
impression or opinion and render a verdict based on the evidence presented in court,” then a trial
court is prohibited from discharging the juror. (Pet’r Suppl. Initial Br. 20 (emphasis added).) No
clearly established Supreme Court precedent supports this proposition.
Even if the Trial Court erred by discharging the two jurors, this error would not violate
clearly established Supreme Court precedent unless some constitutional defect existed with the
newly constituted jury. See Rivera, 556 U.S. at 157. “Any claim that the jury was not impartial
.. . must focus not on [the removed jurors], but on the jurors who ultimately sat.” Ross v.

34

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 35 of 42 PagelD #: 1898

Oklahoma, 487 U.S. 81, 86 (1988); cf. United States v. Martinez-Salazar, 528 U.S. 304, 316
(2000) (noting that a trial court’s erroneous failure to strike a biased juror “would require
reversal” if it “resulted] in the seating of any juror who should have been dismissed for cause”).
The fact that the Trial Court’s removal of two jurors “may have resulted in a jury panel different
from that which would otherwise have decided the case” does not convert a state law error
concerning jury composition into a constitutional violation. Ross, 487 U.S. at 87.
Petitioner makes “no allegation that the replacement jurors were biased, or that some
constitutional infirmity ensued as a result of the [Tjrial [Cjourt’s decision” to replace the two
jurors. See Wheeler v. Phillips, No. 05-CV-4399, 2006 WL 2357973, at *6 (E.D.N.Y. Aug. 15,
2006). In the absence of unconstitutional prejudice to Petitioner, the substitution of two
alternates for the two removed jurors — even if erroneous — does not violate the Constitution.
See United States v. Named, 259 F. App’x 377, 378-89 (2d Cir. 2008); Baston v. Artus, No. 08CV-3425, 2010 WL 5067696, at *3 (E.D.N.Y. Dec. 6, 2010); Sutton v. Conway, No. 06-CV-5833,
2010 WL 744417, at *9 (E.D.N.Y. Mar. 2, 2010).
Accordingly, the Appellate Division did not contradict or unreasonably apply clearly
established Supreme Court precedent by upholding the Trial Court’s discharge of the two jurors.
d.

Improperly admitted evidence

Petitioner’s second pro se claim is that the Trial Court erroneously admitted certain
evidence against him, the cumulative effect of which denied him a fundamentally fair trial in
violation of federal due process principles. (Pet’r Suppl. Initial Br. 26-36.) The Appellate
Division agreed that the Trial Court admitted some of this evidence in violation of New York

35

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 36 of 42 PagelD #: 1899

rules of evidence,12 but found the violations harmless. See Paige, 22 N.Y.S.3d at 229. This
claim does not entitle Petitioner to relief because the admission of evidence in violation of state
evidentiary rules does not (without more) violate the Constitution, and the cumulative effect of
these evidentiary rulings was not so egregious as to deny Petitioner a fundamentally fair trial.
During federal habeas review of a state court conviction, a federal court may not inquire
into whether the state court violated state rules of evidence. See Estelle v. McGuire, 502 U.S. 62,
67-68 (1991). “Merely showing that the state court admitted evidence in violation of state rules
of evidence is not enough” to warrant federal post-conviction relief, “for such a state court
decision on state law, even if erroneous, is not an independent ground for the writ of habeas
corpus to issue under AEDPA.” Griggs v. Lempke, 797 F. App’x 612, 615 (2d Cir. 2020).
However, a court may “review an error of state evidentiary law to assess whether the error
deprived the petitioner of his due process right to a ‘fundamentally fair trial.’” Freeman v.
Kadien, 684 F.3d 30, 35 (2d Cir. 2012) (quoting Zarvela v. Artuz, 364 F.3d 415,418 (2d Cir.
2004)); see also Vincent v. Bennett, 54 F. App’x 714, 717 (2d Cir. 2003). A state law evidence
violation becomes a federal constitutional violation if “the evidence was ... ‘so extremely unfair
that its admission violate[d] fundamental conceptions ofjustice.’” Vega v. Walsh, 669 F.3d 123,
126 (2d Cir. 2012) (quoting Dowling v. United States, 493 U.S. 342, 353 (2010)); see also

12 The Appellate Division held that the Trial Court should not have permitted Officer
LaCoste to testify that Petitioner possessed and later swallowed a handcuff key during his arrest.
See People v. Paige, 22 N.Y.S.3d 220, 229 (App. Div. 2015). The Appellate Division also found
that the Trial Court erred by permitting Officer LaCoste to testify concerning the guns and
ammunition found on the premises during Officer LaCoste’s prior arrest of Petitioner for crimes
unrelated to this case. See id. However, the Appellate Division upheld the Trial Court’s
decision to admit evidence of Petitioner’s gang membership. See id. In addition, without ruling
on the appropriateness of the Trial Court’s decision, the Appellate Division found that no
prejudice resulted from the Trial Court’s decision not to offer a curative instruction that
prosecutors had violated discovery rules by calling Detective Perez to testify concerning his
knowledge of Petitioner’s telephone number. See id.
36

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 37 of 42 PagelD #: 1900

Freeman, 684 F.3d at 35. Only a narrow set of evidentiary violations fits within this category.
See Evans v. Fischer, 712 F.3d 125, 133 (2d Cir. 2013).
i.

Exhaustion and AEDPA deference

As a threshold matter, the parties disagree over whether Petitioner has exhausted his state
court remedies concerning one set of testimony covered by this claim — the Trial Court’s
allegedly improper admission of the testimony of Detective Perez. (Resp’ts Suppl. Br. 2—3,
Docket Entry No. 15; Pet’r Suppl. Reply ^ 7.)
The Court assumes without deciding that Petitioner failed to exhaust part of this claim,
but this assumption does not prejudice Petitioner because the Court rejects his claim on the
merits. See 28 U.S.C. § 2254(b)(2). This assumption benefits Petitioner because “[t]he Court
reviews unexhausted claims de novo,” instead of applying normal AEDPA deference. Medina v.

i

I
Gonyea, 111 F. Supp. 3d 225, 236 (E.D.N.Y. 2015); see also Rosario v. Roden, 809 F.3d 73, 74
(1st Cir. 2015); Robinson v. Beard, 762 F.3d 316, 329 n.4 (3d Cir. 2014); Allen v. Mullin, 368
F.3d 1220, 1235 (10th Cir. 2004); Newell v. Hanks, 335 F.3d 629, 631 (7th Cir. 2003); Jones v.
Jones, 163 F.3d 285, 299-300 (5th Cir. 1998). Because the unexhausted portion of this claim
(concerning Detective Perez’s testimony) is intertwined with the entire claim — that is,
Petitioner argues that the cumulative effect of Detective Perez’s testimony combined with the
other improperly admitted evidence denied him a fundamentally fair trial — the Court reviews
the entire claim de novo.
ii.

The Trial Court did not deprive Petitioner of a fundamentally fair
trial

As to the merits of the claim, Petitioner challenges three items of testimony. Although
the Trial Court erroneously admitted some of this testimony, the cumulative effect of all three
items of testimony did not deprive Petitioner of a fundamentally fair trial.

37

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 38 of 42 PagelD #: 1901

First, Petitioner challenges the testimony of Detective Perez, whose testimony linked
Petitioner to a prepaid cellular telephone tied to the shootings, (Jury Trial Tr. 868—71), but Wint’s
testimony also linked Petitioner to this telephone, (id. at 637).
Second, Petitioner challenges the testimony of Officer LaCoste concerning Petitioner’s
possession of a handcuffkey. (Id. at 937-40.) However, testimony about the handcuff key made
up only a small portion of the prosecution’s evidence, (id. at 938-40, 1050-51), and the key
received only brief mention in the prosecution’s opening statement and summation, (id. at 63,
1278). In addition, Petitioner’s trial counsel repeatedly impeached Officer LaCoste on crossexamination, both by questioning the plausibility of Officer LaCoste’s testimony and by
suggesting Officer LaCoste’s bias against Petitioner due to the legal complaints and federal
lawsuits Petitioner had filed against Officer LaCoste. (Id. at 944-47,1035-36.)
Third, Petitioner challenges additional testimony from Officer LaCoste concerning his
seizure of firearms, ammunition, and crack cocaine from a location at which he previously
arrested Petitioner, (id. at 977-79), but Petitioner’s trial counsel mitigated the impact of this
testimony on cross-examination. Officer LaCoste conceded that Petitioner had not been
convicted of possessing the weapons because the charges were still pending. (Id. at 1032-33.)
In fact, Officer LaCoste conceded that at the time of the seizure, police arrested three other
individuals for possession of the weapons. (Id. at 1033.) Petitioner’s trial counsel also elicited
from Officer LaCoste a concession that the location from which police seized the weapons was
different from the address Petitioner listed as his home address during booking. (Id.) In
addition, Officer LaCoste’s timeline demonstrated that police had seized the firearms prior to the
shootings in this case, and therefore the seized weapons could not have been used in the
shootings in this case. (Id. at 1032-33.) Perhaps most importantly, the jury had only limited

38

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 39 of 42 PagelD #: 1902

exposure to the evidence of the seized guns: prosecutors did not mention the seizure again, either
during Officer LaCoste’s remaining testimony or in their summation.
i

Given the limited impact of this testimony, the Court cannot conclude that the testimony
was so extremely unfair as to violate fundamental conceptions of justice. This is not a case
where, for example, the Trial Court’s erroneous evidentiary rulings undercut Petitioner’s entire
defense at trial. See, e.g., Jimenez v. Walker, 45B F.3d 130, 148 (2d Cir. 2006). While the Trial
Court wrongfully permitted some of this testimony in violation of New York evidence law, the
presence of this improper evidence did not so thoroughly infect the proceedings as to render
them fundamentally unfair. Accordingly, the Court rejects Petitioner’s challenge to the
fundamental fairness of his trial.
iii.

Harmless error

Much of Petitioner’s supplemental argument concerns harmless error. (Pet’r Suppl.
Initial Br. 29-33, 34-35; Pet’r Suppl. Reply Kf 7-8, 15, 22, 34-35.) Because the Court finds no
federal constitutional violation, the Court cannot engage in harmless error analysis. See
McKnight v. Henderson, Nos. 86-CV-0938E(M), 86-CV-1015E(M) & 87-CV-0035E(M), 1995
WL 129036, at *2 (W.D.N.Y. Mar. 14, 1995). Put another way, because the Court has found no
constitutional violation, there is no constitutional error to analyze for whether it was harmless.
Petitioner further argues that the Appellate Division improperly analyzed the
harmlessness of these state law violations. However, “[t]he harmlessness of an error of state law
in a state criminal prosecution is itself a question of state law for which no federal habeas review
is available under 28 U.S.C. § 2254.” Freeman, 684 F.3d at 35. Accordingly, the Court cannot
review the Appellate Division’s harmless error analysis as applied to state law violations if those
state law violations do not also violate the Constitution.

39

APPENDIX B

I

1

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 40 of 42 PagelD #: 1903

e.

Prosecutors’ concession concerning cellular telephone records

Finally, Petitioner asks the Court to grant habeas relief concerning prosecutors’ “new
i

admission that [the cell phone] call data records [introduced at trial] . .. do[] not place Petitioner
at the scene of the crime, as erroneously relied on by the [Appellate Division].” (Pet’r Suppl.
Reply

8.) Because this argument appears for the first time in a reply brief, the Court does not

consider it. See, e.g., Dixon v. Miller, 293 F.3d 74, 80 (2d Cir. 2002).
f.

Certificate of appealability

“The district court must issue or deny a certificate of appealability when it enters a final
order adverse to the applicant.” Rule 11(a) Gov’g § 2254 Cases in U.S. Dist. Cts. Having
denied the petition for a writ of habeas corpus, the Court issues a certificate of appealability for
Petitioner’s claim related to his ejection from trial, but not for any of his remaining claims.
A court must issue a certificate of appealability “only if the applicant has made a
i

substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). This means
that a habeas petitioner must demonstrate “that reasonable jurists could debate whether (or, for
that matter, agree that) the petition should have been resolved in a different manner or that the
issues presented were ‘adequate to deserve encouragement to proceed further. ’” Slack v.
McDaniel, 529 U.S. 473,484 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893 n.4 (1983)).
“This threshold question should be decided without ‘full consideration of the factual or legal
bases adduced in support of the claims.’” Buckv. Davis, — U.S. —, —, 137 S. Ct. 759, 773
(2017) (quoting Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)). “Obtaining a certificate of
appealability ‘does not require a showing that the appeal will succeed,’ and ‘[courts] should not
decline the application . .. merely because [they] believef] the applicant will not demonstrate an
entitlement to relief.’” Welch v. United States, — U.S. —, —, 136 S. Ct. 1257, 1263-64 (2016)

40

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 41 of 42 PagelD #: 1904

(second alteration in original) (quoting Miller-El, 537 U.S. at 337). In fact, a certificate of
i

appealability may issue even if “every jurist of reason might agree, after the [certificate of
appealability] has been granted and the case has received full consideration, that petitioner will
not prevail.” Miller-El, 537 U.S. at 337-38.
The Court grants a certificate of appealability for the counseled claim concerning
Petitioner’s ejection from the courtroom. Because of the importance of the right of a criminal
defendant to be present during his or her trial, reasonable jurists could debate the merits of
Petitioner’s claim that the Appellate Division unreasonably applied clearly established Supreme
Court precedent or that it reached an unreasonable determination of the facts related to that
claim. In addition, Allen, the controlling decision, is sufficiently vague as to permit reasonable
jurists to at least debate its scope. While the Court doubts that any reasonable jurist would come
to a different conclusion, the Court must nevertheless issue the certificate so long as the issue is
debatable. See Miller-El, 537 U.S. at 337-38. Accordingly, the Court issues a certificate of
appealability concerning Petitioner’s Allen claim.
With regard to the remaining claims, none warrants a certificate of appealability and the
Court declines to issue a certificate of appealability as to any. Reasonable jurists could not
debate whether the claim concerning the two discharged jurors should have been resolved
differently because those two discharged jurors did not form part of the jury that convicted
Petitioner. The same is true with regard to Petitioner’s claim concerning the improper testimony.
Reasonable jurists could not debate whether Detective Perez’s and Officer LaCoste’s testimony
— even if permitted in violation of state law — deprived Petitioner a fundamentally fair trial
under due process principles. The threshold for an evidentiary error to violate due process is too
high and the impact of the testimony on Petitioner’s trial is too minimal for this claim to warrant

41

APPENDIX B

Case l:16-cv-06802-MKB Document 19 Filed 07/08/20 Page 42 of 42 PagelD #: 1905

debate among reasonable jurists. See Evans, 712 F.3d at 133. Finally, reasonable jurists would
not debate Petitioner’s claim concerning the cellular telephone records because he raised it for
the first time in a reply brief. The principle that courts will not consider arguments first raised in
a reply brief “is a well-settled prudential doctrine” familiar to litigators and judges throughout
the nation. Beyond Pesticides v. Monsanto Co., 311 F. Supp. 3d 82, 90 (D.D.C. 2018) (quoting
Benton v. Laborers’ Joint Training Fund, 121 F. Supp. 3d 41, 51 (D.D.C. 2015)). The Second
Circuit has followed that practice for nearly a century and continues to do so today. See Diaz v.
United States, 633 F. App’x 531, 556 (2d Cir. 2015); Smith v. U.S. Shipping Bd. Emerg. Fleet
Corp., 26 F.2d 337, 339 (2d Cir. 1928). No reasonable jurist would debate a claim raised for the
first time in a reply brief Accordingly, the Court declines to issue a certificate of appealability
for any of these claims.
III. Conclusion
For the reasons explained above, the Court declines to grant habeas corpus relief as to
any of Petitioner’s claims, and denies the petition for habeas corpus. Because this is a final order
adverse to Petitioner, the Court issues a certificate of appealability on Petitioner’s Allen claim but
denies certificates of appealability on all remaining claims.
Dated: July 8, 2020
Brooklyn, New York

SO ORDERED:

s/MKB
MARGO K. BRODIE
United States District Judge

42

APPENDIX B

Case 20-2296, Document 100, 05/12/2021,3098879, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
12th day of May, two thousand twenty-one.

Zaire Paige,
Petitioner - Appellant,
ORDER
v.

Docket No: 20-2296

Stewart Eckert, Superintendent Wende Correctional
Facility, Leticia James, Attorney General of New York,
Respondents - Appellees.

Appellant, Zaire Paige, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

APPENDIX C

i

People v. Paige, 134 A.D.3d 1048 (2015)
22 N.Y.S.3d 220, 2015 N.Y. Slip Op. 09443

134 A.D.3dl048
Supreme Court, Appellate Division, Second
Department, New York.

The PEOPLE, etc., respondent,
V.

Brooklyn, N.Y. (Leonard Joblove, Solomon Neubort, and
Terrence F. Heller of counsel), for respondent.
REINALDO E. RIVERA, J.P., RUTH C. BALK1N,
ROBERT J. MILLER, and SYLVIA O. HINDS-RADIX,
JJ.
Opinion

Zaire PAIGE, appellant.
Dec. 23, 2015.

Synopsis
Background: Defendant was convicted upon a jury
verdict in the Supreme Court, Kings County, Del Guidice,
J., of murder, assault, and criminal possession of a
weapon. Defendant appealed.

Holdings: The Supreme Court, Appellate Division, held
that:
ample corroborative evidence existed to connect
defendant to crimes in addition to testimony of
defendant’s accomplice;
defendant knowingly, voluntarily, and intelligently
waived his constitutional right to be present at trial;
trial court’s decision to reject representations made by
juror that she could be impartial was not based on
impermissible speculation, and thus trial court properly
dismissed juror as grossly unqualified;
defendant failed to preserve argument that trial court erred
in dismissing juror for engaging in substantial
misconduct; and
trial court’s errors in permitting certain evidence was
harmless.

Affirmed.

Attorneys and Law Firms
**222 Seymour W. James, Jr., New York, N.Y. (Lorca
Morello of counsel), for appellant.
**223

Kenneth

WESTLAW

P.

Thompson,

District

Attorney,

*1049 Appeal by the defendant from a judgment of the
Supreme Court, Kings County (Del Guidice, J.), rendered
January 24, 2011, convicting him of murder in the second
degree, assault in the first degree (three counts), assault in
the second degree, and criminal possession of a weapon in
the second degree, upon a jury verdict, and imposing
sentence.
ORDERED that the judgment is affirmed.
The defendant was charged with, inter alia, murder in the
second degree, assault in the first degree (three counts),
assault in the second degree (four counts), and criminal
possession of a weapon in the second degree (two counts).
The People alleged that the defendant and his
codefendant, Robert Crawford, acting in concert, shot and
killed Lethania Garcia because they believed Garcia had
killed one of their friends two years earlier.
At the defendant’s jury trial, the People presented
evidence that on October 27, 2008, the defendant and
Crawford located Garcia in downtown Brooklyn. The
People’s evidence showed that the defendant and
Crawford, each armed with a handgun, began shooting at
Garcia while he stood on the sidewalk in front of a
bakery. When the shooting began, Garcia fled into a
nearby hair salon and the two gunmen followed him
inside. Garcia attempted to escape out a back door, but the
door was jammed. Witnesses inside the hair salon
testified that everyone in the salon got down on the floor
to escape the hail of bullets that flew around them.
Testimony showed that one of the two gunmen stood at
the door of the salon while the other gunman stood over
Garcia and fired eight shots into him as he lay on the
floor. Garcia sustained gunshot wounds that went through
his brain, spinal cord, liver, and a lung. These injuries
were fatal, and Garcia was pronounced dead at the scene.
In addition to Garcia, the gunfire also struck numerous
other individuals who had sought refuge in the hair salon
and who had been crowded onto the floor when the
shooting occurred, including a woman who sustained a
total of 17 gunshot wounds and an off-duty police officer
who was shot in the foot.

APPENDIX D

1

1
1

People v. Paige, 134 A.D.3d 1048 (2015)
22 N.Y.S.3d 220, 2015 N.Y. Slip Op. 09443
The defendant and Crawford fled the scene in a sport
utility vehicle driven by an accomplice. At the trial, the
accomplice testified pursuant to a plea agreement. His
testimony provided the jury with a detailed account of the
events leading up to, *1050 and occurring after, Garcia’s
murder. The accomplice’s testimony was the primary
evidence identifying the defendant and Crawford as the
perpetrators of these crimes, although mobile phone
records and cell tower data were evidence of the
defendant’s presence at the location of the crime when the
shooting occurred and other evidence corroborated the
accomplice’s account of the incident.
During the course of the trial, the defendant was excluded
from the courtroom after he began shouting expletives at
a police witness who was testifying on behalf of the
People. The defendant repeatedly accused the police
witness of “lying” before court officers removed him.
This outburst occurred in the presence of the jury. After
the court issued a curative instruction and warned the
jurors not to discuss the case or begin deliberations until
they were so charged, the jurors were excused for the day.
**224 The court later learned that members of the jury
had a discussion in the jury room regarding the credibility
of police officers following the defendant’s outburst. One
member of the jury had reportedly stated that “she hated
police officers” and that “none of them [could] be
trusted.” This juror—juror number eight—reportedly
stated that she hid her negative views during jury
selection because she “didn’t want to bring any attention
to herself.” The court proceeded to individually interview
each of the jurors and each of the alternate jurors in the
presence of the prosecutor and defense counsel,
questioning them about the contents of the discussion that
had occurred in the jury room and whether they could
remain fair and impartial. At the conclusion of this
inquiry, the court dismissed two jurors—juror number
eight and juror number nine. The court determined that
juror number eight was grossly unqualified to serve and
that she had engaged in substantial misconduct. The court
dismissed juror number nine on the ground that she had
engaged in substantial misconduct. The discharged jurors
were replaced with alternate jurors and the trial resumed.
At the conclusion of the evidence and after summations,
the jury was charged and retired to deliberate. The jury
returned a verdict finding the defendant guilty of murder
in the second degree, assault in the first degree (three
counts), assault in the second degree, and criminal
possession of a weapon in the second degree. The
defendant appeared at sentencing and was permitted to
address the court, at which time he maintained his
innocence and directed obscenities at the Trial Justice.
WESTLAW

Noting that the defendant had “turned the streets of
Brooklyn into *1051 a war zone” and had callously
“executed” Garcia and “grievously wounded ... additional
innocent bystanders,” the court imposed a sentence of
imprisonment. We affirm.
On appeal, the defendant contends that the evidence was
legally insufficient to support the convictions since they
were based solely on the uncorroborated testimony of the
accomplice in violation of Criminal Procedure Law §
60.22(1). This contention is without merit.
Criminal Procedure Law § 60.22(1) provides that “[a]
defendant may not be convicted of any offense upon the
testimony of an accomplice unsupported by corroborative
evidence tending to connect the defendant with the
commission of such offense” (CPL 60.22[1] ). “[T]he role
of the additional evidence is only to connect the defendant
with the commission of the crime, not to prove that he
committed it” (People v. Reome, 15 N.Y.3d 188, 192, 906
N.Y.S.2d 788, 933 N.E.2d 186 [internal quotation marks
omitted]; see People v. Sage, 23 N.Y.3d 16, 27, 988
N.Y.S.2d 104; People v. Breland, 83 N.Y.2d 286, 294,
609 N.Y.S.2d 571, 631 N.E.2d 577). The statutory
corroboration requirement may be satisfied by evidence
that “ ‘tends to connect the defendant with the
commission of the crime in such a way as may reasonably
satisfy the jury that the accomplice is telling the truth’ ”
{People v. Reome, 15 N.Y.3d at 192, 906 N.Y.S.2d 788,
933 N.E.2d 186, quoting People v. Dixon, 231 N.Y. Ill,
116, 131 N.E. 752; see People v. Sage, 23 N.Y.3d at 27,
988 N.Y.S.2d 104).
Here, contrary to the defendant’s assertion, there was
ample corroborative evidence tending to connect the
defendant to these crimes. Numerous eyewitnesses
testified that two shooters had been involved in the
incident. One eyewitness observed the two shooters enter
a sport utility vehicle after the shooting, and that witness
wrote down the license plate number of the vehicle. The
license plate number **225 of the sport utility vehicle led
police to the accomplice. In addition, although none of the
eyewitnesses to the shooting identified the defendant as
the shooter, the phone records and testimony from
employees of the cell phone providers served to establish
the defendant’s presence at the scene when the crime was
committed {see CPL 60.22[1]; People v. Vantassel, 95
A.D.3d 907, 907-908, 942 N.Y.S.2d 886; People v.
Sudhan, 83 A.D.3d 874, 874, 920 N.Y.S.2d 678). The
accomplice’s assertion that the defendant killed Garcia
because the defendant believed that Garcia had killed the
defendant’s friend two years earlier was corroborated by
Kim Tillson, the mother of the defendant’s deceased
friend, who testified that the defendant called her on the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

People v. Paige, 134 A.D.3d 1048 (2015)
22 N.Y.S.3d 220, 2015 N.Y. Slip Op. 09443
date of the shooting to wish her happy birthday and to
inform her that he “took care of that.” Accordingly, the
defendant’s contention that the evidence was legally
insufficient to support his convictions is without merit.
*1052 Moreover, upon the exercise of our factual review
power, we are satisfied that the verdict of guilt was not
against the weight of the evidence (see CPL 470.15[5] ).
The defendant also contends that he was deprived of his
right to be present at his trial when the court permanently
excluded him from the courtroom following his outburst.
This contention is without merit.
A defendant’s right to be present at a criminal trial is
encompassed within the confrontation clauses of the state
and federal constitutions (see N.Y. Const., art. I, § 6; U.S.
Const. 6th Amend.). “Of course the right to be present
may, as a general matter, be waived under both
Constitutions” {People v. Parker, 57 N.Y.2d 136, 139,
454 N.Y.S.2d 967, 440 N.E.2d 1313). “[A] waiver of the
right to be present at a criminal trial may be inferred from
certain conduct engaged in by the defendant after the trial
has commenced” (id. at 139, 454 N.Y.S.2d 967, 440
N.E.2d 1313; see People v. Johnson, 37 N.Y.2d 778, 779,
375 N.Y.S.2d 97, 337 N.E.2d 605; People v. Epps, 37
N.Y.2d 343, 350-351, 372 N.Y.S.2d 606, 334 N.E.2d
566). “[A] defendant who engages in disruptive behavior
during a trial may be held to have, in effect, waived his
[or her] right to be present” {People v. Connor, 137
A.D.2d 546, 549, 524 N.Y.S.2d 287; see Illinois v. Allen,
397 U.S. 337, 342, 90 S.Ct. 1057, 25 L.Ed.2d 353; People
v. Byrnes, 33 N.Y.2d 343, 349, 352 N.Y.S.2d 913, 308
N.E.2d 435).
In this case, the defendant’s actions throughout the
course of the trial constituted disruptive conduct
warranting the defendant’s exclusion from the courtroom
(see People v. Byrnes, 33 N.Y.2d at 349-350, 352
N.Y.S.2d 913, 308 N.E.2d 435; People v. Palermo, 32
N.Y.2d 222, 225, 344 N.Y.S.2d 874, 298 N.E.2d 61;
People v. Baxter, 102 A.D.3d 805, 805, 961 N.Y.S.2d
194; People v. Garcia, 57 A.D.3d 918, 918-919, 869
N.Y.S.2d 618; People v. Felix, 2 A.D.3d 535, 536, 767
N.Y.S.2d 918). The record reflects that, even prior to the
defendant’s outburst, he had engaged in a pattern of
behavior that delayed and frustrated court proceedings
notwithstanding the fact that he had been repeatedly
warned by the trial court that if he did not desist in such
conduct, he would be barred from attending the remainder
of the trial. To the extent that the defendant disputes the
trial court’s characterization of these events with
reference to matter dehors the record, such contentions
are not properly before this Court (see generally People v.
Cass, 18 N.Y.3d 553, 556, 942 N.Y.S.2d 416, 965 N.E.2d
WESTLAW

918). In sum, the record adequately demonstrates that the
defendant, in persisting in his pattern of behavior despite
the trial court’s admonitions, knowingly, voluntarily, and
intelligently waived his right to be present at the
remainder **226 of his trial {see People v. Johnson, 37
N.Y.2d at 779, 375 N.Y.S.2d 97, 337 N.E.2d 605; People
v. Epps, 37 N.Y.2d at 350-351, 372 N.Y.S.2d 606, 334
N.E.2d 566; People v. Byrnes, 33 N.Y.2d at 349-350, 352
N.Y.S.2d 913, 308 N.E.2d 435; People v. Palermo, 32
N.Y.2d at 225, 344 N.Y.S.2d 874, 298 N.E.2d 61; see
also People v. Baxter, 102 A.D.3d at 805, 961 N.Y.S.2d
194; People v. Garcia, 57 A.D.3d at 918-919, 869
N.Y.S.2d 618).
Furthermore, under the circumstances of this case, the
trial *1053 court did not improvidently exercise its
discretion in refusing defense counsel’s request to readmit
the defendant to the courtroom (see Illinois v. Allen, 397
U.S. at 342-343, 90 S.Ct. 1057; People v. Epps, 37
N.Y.2d at 351, 372 N.Y.S.2d 606, 334 N.E.2d 566;
People v. Menner, 2 A.D.3d 650, 651, 769 N.Y.S.2d 569).
Although a court should strive, “once the goal of
preserving order and decorum is achieved, [to make]
every reasonable effort ... to minimize the possibility of
prejudice” to a defendant {People v. Palermo, 32 N.Y.2d
at 226, 344 N.Y.S.2d 874, 298 N.E.2d 61), the record in
this case does not support the defendant’s contention that,
after he was removed from the courtroom for his
profanity-ridden outburst, he was willing to “conduct
himself consistently with the decorum and respect
inherent in the concept of courts and judicial proceedings”
{Illinois v. Allen, 397 U.S. at 343, 90 S.Ct. 1057; see
People v. Menner, 2 A.D.3d at 651, 769 N.Y.S.2d 569).
Furthermore, while a trial court that readily possesses the
means to do so should generally permit a defendant who
has been excluded from the courtroom to observe the
proceedings from a remote location in order to minimize
the possibly of prejudice (see generally People v.
Palermo, 32 N.Y.2d at 226, 344 N.Y.S.2d 874, 298
N.E.2d 61; People v. Sanchez, 1 A.D.3d 645, 646, 111
N.Y.S.2d 144; People v. Harris, 115 A.D.2d 619, 620,
496 N.Y.S.2d 476), we conclude that under the particular
circumstances of this case, the court did not
improvidently exercise its discretion in declining defense
counsel’s request to peimit the defendant to view the
proceedings from a remote location (cf. People v.
Sanchez, 1 A.D.3d at 646, 111 N.Y.S.2d 144; People v.
Harris, 115 A.D.2d at 620,496 N.Y.S.2d 476).
The defendant next contends that the trial court erred in
dismissing juror number eight and juror number nine on
the ground that they were grossly unqualified and/or had
engaged in substantial misconduct. This contention is
partially unpreserved for appellate review and, in any

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

People v. Paige, 134 A.D.3d 1048 (2015)
22 N.Y.S.3d 220, 2015 N.Y. Slip Op. 09443
event, without merit.

854, 618 N.Y.S.2d 64).

“The constitutional right of a criminal defendant to a fair
trial includes both the right to be tried by the jury in
whose selection the defendant himself has participated,
and the right to an impartial jury” (People v. Rodriguez,
71 N.Y.2d 214, 218, 524 N.Y.S.2d 422, 519 N.E.2d 333;
see N.Y. Const., art. I, §§ 6, 2; U.S. Const. 6th, 14th
Amends.). In order to safeguard these rights, the
Legislature has supplied, inter alia, a mechanism to allow
for a juror to be dismissed during the trial or during
deliberations (see CPL 270.35; People v. Rodriguez, 71
N.Y.2d at 218, 524 N.Y.S.2d 422, 519 N.E.2d 333).
Accordingly, “[i]f at any time after the tidal jury has been
sworn and before the rendition of its verdict ... the court
finds, from facts unknown at the time of the selection of
the jury, that a juror is grossly unqualified to serve in the
case or has engaged in misconduct of a substantial nature
... the court must discharge such juror” (CPL 270.35 [1]
[emphasis added]; see People v. Buford, 69 N.Y.2d 290,
298, 514 N.Y.S.2d 191,506N.E.2d 901).

In this case, the trial court properly conducted an in
camera proceeding to inquire into the nature of the
statements that juror number eight had made to other
jurors regarding her views on law enforcement personnel.
During this inquiry, juror number eight admitted that she
had stated, during a discussion with other jurors, that
“cops are crooked.” Although juror number eight later
asserted that she had only said that “some cops are
crooked” and represented that she could be fair and
impartial despite her “personal opinion” as to law
enforcement personnel, the trial court was not required to
accept these representations at face value (see People v.
Rojas, 15 A.D.3d 211, 212, 790 N.Y.S.2d 431; People v.
Aybinder, 215 A.D.2d 181, 181, 626 N.Y.S.2d 150;
People v. Cannady, 138 A.D.2d 616, 616-617, 526
N.Y.S.2d 202; see also People v. Hicks, 6 N.Y.3d 737,
739, 810 N.Y.S.2d 396, 843 N.E.2d 1136; Mikel v. Zon,
2007 WL 9225080, *18, 2007 U.S. Dist. LEXIS 103479,
*50 [W.D.N.Y., No. 04-CV-6448 (CJS/VEB) ] ).
Contrary to the defendant’s contention, the court’s
decision to reject the representations of juror number
eight as to her partiality was not based on impermissible
speculation; it was supported by the record (cf. People v.
Telehany, 302 A.D.2d 927, 928, 754 N.Y.S.2d 508;
People v. Velasquez, 167 A.D.2d 364, 365, 561 N.Y.S.2d
314; People v. Garcia, 153 A.D.2d 951, 953, 545
N.Y.S.2d 758). Indeed, two of the alternate jurors who
*1055 were interviewed by the trial court controverted the
account of the discussion given by juror number eight and
indicated that, in the jury room, she had expressed deep
hostility against law enforcement personnel. Under the
circumstances, we decline to disturb the trial court’s
credibility determination with respect to juror number
eight (cf. People v. Johnson, 245 A.D.2d 305, 305, 670
N.Y.S.2d 118, 119). In light of this factual determination,
we conclude that the trial court properly dismissed juror
number eight inasmuch as the record established that she
was “grossly unqualified to serve in the case” (CPL
270.35[1]; see **228 People v. Rojas, 15 A.D.3d at 212,
790 N.Y.S.2d 431; People v. Aybinder, 215 A.D.2d at
181, 626 N.Y.S.2d 150).

*1054 Here, the defendant contends that the trial court
erred in concluding **227 that juror number eight was
grossly unqualified in light of her unequivocal assurance
that she could remain fair and impartial. The Court of
Appeals has held that a juror is grossly unqualified “only
when it becomes obvious that [the] particular juror
possesses a state of mind which would prevent the
rendering of an impartial verdict” (People v. Buford, 69
N.Y.2d at 298, 514 N.Y.S.2d 191, 506 N.E.2d 901
[internal quotation marks omitted]; see People v.
Rodriguez, 71 N.Y.2d at 219, 524 N.Y.S.2d 422, 519
N.E.2d 333). In order to determine whether this standard
has been met, “ [a] trial court should first conduct an in
camera proceeding in the presence of the attorneys and
defendant” (People v. Rodriguez, 71 N.Y.2d at 219, 524
N.Y.S.2d 422, 519 N.E.2d 333). This proceeding should
be a “probing and tactful inquiry” into the “unique facts”
of each case, including a careful consideration of the
juror’s “answers and demeanor” (People v. Buford, 69
N.Y.2d at 299, 514 N.Y.S.2d 191, 506 N.E.2d 901; see
People v. Rodriguez, 71 N.Y.2d at 219, 524 N.Y.S.2d
422, 519 N.E.2d 333). “The Trial Judge generally is
accorded latitude in making the findings necessary to
determine whether a juror is grossly unqualified under
CPL 270.35, because that Judge is in the best position to
assess partiality in an allegedly biased juror” (People v.
Rodriguez, 71 N.Y.2d at 219, 524 N.Y.S.2d 422, 519
N.E.2d 333; see People v. Guy, 93 A.D.3d 877, 878, 939
N.Y.S.2d 613; People v. Rosado, 53 A.D.3d 455, 457,
862 N.Y.S.2d 41; People v. Franklin, 7 A.D.3d 966, 967,
776 N.Y.S.2d 596; People v. Burse, 299 A.D.2d 911, 912,
749 N.Y.S.2d 350; People v. Bamfield, 208 A.D.2d 853,
WESTLAW

The defendant further contends that the trial court erred
in dismissing juror number nine on the ground that she
had engaged in substantial misconduct. However, the
defendant did not take this position during the trial.
Rather, the defendant’s attorney merely argued that juror
number nine was not grossly unqualified due to her
alleged bias against police officers. Even after the trial
court determined, on the record, that juror number nine
had engaged in substantial misconduct, defense counsel
failed to take exception to the court’s ruling on this

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

People v. Paige, 134 A.D.3d 1048 (2015)
22 N.Y.S.3d 220, 2015 N.Y. Slip Op. 09443
ground. Accordingly, the defendant’s contention that the
trial court erred in determining that juror number nine had
engaged in substantial misconduct is unpreserved for
appellate review (see CPL 470.05 [2]; People v. Jenkins,
257 A.D.2d 666, 682 N.Y.S.2d 910; see also People v.
Hicks, 6 N.Y.3d at 739, 810 N.Y.S.2d 396, 843 N.E.2d
1136; People v. Gonzalez, 246 A.D.2d 554, 554, 666
N.Y.S.2d 934).
In any event, the record supports the trial court’s
conclusion that juror number nine had engaged in
misconduct of a substantial nature warranting her
dismissal pursuant to CPL 270.35(1). When she was
questioned by the court during its in camera inquiry, juror
number nine indicated that she had discussed the
trustworthiness of police officers with other jury
members, telling them that “some [police officers] do
things that are not right,” and related instances in which
she had observed police misconduct. In response to a
question about what precipitated her remarks, juror
number nine indicated that these discussions “pertain[ed]
to what took place [in the courtroom]” on the previous
Friday, the day on which the defendant had disrupted
court proceedings by accusing a police witness of lying.
The record demonstrates that juror number nine engaged
in these discussions despite the fact that the trial court had
repeatedly admonished the jury “[y]ou may not discuss
any subject connected with this case among yourselves,”
and had repeated these warnings just prior to discharging
the jury in the wake of the defendant’s outburst. Although
juror *1056 number nine acknowledged receiving these
instructions, she refused to acknowledge that she had
violated them. In addition, the record reflects that she
failed to adequately respond to questions during jury
selection about her past experiences with law enforcement
personnel despite the fact that the prospective jurors were
asked whether they had any “personal experiences” that
would “impact” how they would evaluate police
testimony, and this and similar questions were specifically
incorporated into the questions directed at juror number
nine. In light of the foregoing, we decline to disturb the
trial court’s finding that juror number nine improperly
withheld information from the court and the lawyers
during voir dire and violated the court’s repeated
instructions not to discuss the case prior to formal
deliberation. In light of this factual determination, we
conclude that the trial court properly dismissed juror
number nine inasmuch as the record demonstrated that
she had “engaged in misconduct of a substantial nature”
(CPL 270.35[1]; see People v. Cannady, 138 A.D.2d at
616-617, 526 N.Y.S.2d 202; see also People v. Havner,
19 A.D.3d 508, 508, 798 N.Y.S.2d 476; People v. Rojas,
15 A.D.3d at 212, 790 N.Y.S.2d 431; People v. Tamayo,
256 A.D.2d 98, 99, 682 N.Y.S.2d 37; People v. Radtke,
WESTLASV

219 A.D.2d 739, 739-740, 631 N.Y.S.2d 763; People v.
Johnson, 217 A.D.2d 667, 668, 629 N.Y.S.2d 801; People
v. Berrios, 177 A.D.2d 493, 494, 575 N.Y.S.2d 709;
People v. Fox, 172 A.D.2d 218, 567 N.Y.S.2d 723).
**229 The defendant also contends that he was denied his
right to a public trial when the trial court closed the
courtroom for the limited purpose of determining the
extent to which defense counsel had “opened the door” to
certain evidence. However, the defendant waived this
claim by explicitly consenting to the closure (see People
v. Bens, 23 A.D.3d 489, 805 N.Y.S.2d 621; People v.
Sevencan, 258 A.D.2d 485, 685 N.Y.S.2d 735). The
defendant’s further contention that his limited waiver of
this right was not knowing, voluntary, and intelligent is
without merit (see People v. Moody, 300 A.D.2d 510,
510-511, 751 N.Y.S.2d 542; People v. Rogue, 291
A.D.2d 417, 417, 737 N.Y.S.2d 306).
There is no merit to the defendant’s contentions regarding
the admission of evidence of the defendant’s gang
membership, as the evidence was relevant to the issue of
the defendant’s motive, was inextricably interwoven into
the narrative, and explained the relationships between the
parties (see People v. Bruno, 127 A.D.3d 986, 7 N.Y.S.3d
408; People v. Harris, 117 A.D.3d 847, 855, 985
N.Y.S.2d 643, affd. 26 N.Y.3d 1, 18 N.Y.S.3d 583, 40
N.E.3d 560; People v. Borrero, 79 A.D.3d 767, 768, 912
N.Y.S.2d 634; People v. Jordan, 74 A.D.3d 986, 986, 902
N.Y.S.2d 379).
However, the trial court should not have permitted the
elicitation of evidence that the defendant had a handcuff
key in his possession at the time of his arrest, nor allowed
Police *1057 Officer Rashan LaCoste to testify that when
he arrested the defendant on a previous occasion for
crimes unrelated to the crimes charged in this case,
various guns and ammunition were recovered from the
residence where the defendant was located at the time of
that arrest. However, these errors were harmless, as the
proof of the defendant’s guilt, without reference to the
error, is overwhelming, and there is no significant
probability that the jury would have acquitted the
defendant had it not been for the error (see People v.
Gillyard, 13 N.Y.3d 351, 356, 892 N.Y.S.2d 288, 920
N.E.2d 344; People v. Crimmins, 36 N.Y.2d 230,
241-242, 367 N.Y.S.2d 213, 326 N.E.2d 787). Similarly,
any prejudice caused by the court’s refusal to provide a
curative instruction after permitting the People to add a
witness after the parties’ opening statements was not so
great as to deprive the defendant of a fair trial.
Contrary to the defendant’s further contention, the court’s
interpretation of a jury request for a readback was

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

People v. Paige, 134 A.D.3d 1048 (2015)
22 N.Y.S.3d 220, 2015 N.Y. Slip Op. 09443
reasonable, and its response meaningful (see CPL 310.30;
People v. Grant, 127 A.D.3d 990, 991, 6 N.Y.S.3d 648;
People v. Clark, 108 A.D.3d 797, 968 N.Y.S.2d 249;
People v. Briggs, 61 A.D.3d 770, 771, 876 N.Y.S.2d 654;
People v. Jones, 297 A.D.2d 256, 257, 746 N.Y.S.2d
596).

70.30(l)(e) do not apply where the two or more crimes
include, as here, a class A felony (see Penal Law §
70.30[ 1 ][e][iii]; Matter of Roballo v. Smith, 63 N.Y.2d
485,483 N.Y.S.2d 178,472 N.E.2d 1006).

t

All Citations
Under the circumstances, the Supreme Court did not
improvidently exercise its discretion in sentencing the
defendant to the maximum aggregate sentence permitted
(see People v. Suitte, 90 A.D.2d 80, 455 N.Y.S.2d 675).
Contrary to the defendant’s further contention, the
sentencing limitations provided in Penal Law §
End of Document

134 A.D.3d 1048, 22 N.Y.S.3d 220, 2015 N.Y. Slip Op.
09443

I

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

i

I

t

I

i

WESTLAW

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

People v. Paige, 27 N.Y.3d 1073 (2016)
60 N.E.3d 1209, 38 N.Y.S.3d 843 (Table)

2d Dept.: 134 A.D.3d 1048, 22 N.Y.S.3d 220 (Kings)
27 N.Y.3d 1073
(The decision of the Court of Appeals of New York is
referenced in the North Eastern Reporter and New
York Supplement in a table entitled “Applications for
Leave to Appeal - Criminal.”)
Court of Appeals of New York

Opinion
Rivera, J.

People
V.

Zaire Paige
May 19,2016

Denied.
All Citations
27 N.Y.3d 1073, 60 N.E.3d 1209, 38 N.Y.S.3d 843
(Table)
I

Synopsis

APPENDIX E

WESTLAW

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

